<html>
<title> - FACIAL RECOGNITION TECHNOLOGY: PART I ITS IMPACT ON OUR CIVIL RIGHTS AND LIBERTIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 FACIAL RECOGNITION TECHNOLOGY: PART I
              ITS IMPACT ON OUR CIVIL RIGHTS AND LIBERTIES

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2019

                               __________

                           Serial No. 116-27

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]   
      
                  Available on: http://www.govinfo.gov
                     http://www.oversight.house.gov
                        http://www.docs.house.gov
                        
                        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-663 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deaeb19ebdabadaab6bbb2aef0bdb1b3f0">[email&#160;protected]</a>                              
                        
                        
                       
                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
            Yvette Badu-Nimako, Legislative Director/Counsel
                           Gina Kim, Counsel
            Laura Rush, Deputy Chief Clerk/Security Manager
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                        
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page

Hearing held on May 22, 2019.....................................     1

                               Witnesses

Ms. Joy Buolamwini, Founder, Algorithmic Justice League
    Oral Statement...............................................     4
Mr. Andrew G. Ferguson, Professor of Law, David A. Clarke School 
  of Law, University of the District of Columbia
    Oral Statement...............................................     5
Ms. Clare Garvie, Senior Associate, Center on Privacy & 
  Technology, Georgetown University Law Center
    Oral Statement...............................................     7
Ms. Neema Singh Guliani, Senior Legislative Counsel, American 
  Civil Liberties Union
    Oral Statement...............................................     9

Dr. Cedric Alexander, Former President, National Organization of 
  Black Law Enforcement Executives
    Oral Statement...............................................    11

Written statements for the witnesses are available on the U.S. 
  House of Representatives Document Repository at: https://
  docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents entered into the record during this hearing are 
  listed below, and are available at: https://docs.house.gov.

  * Letter from the Information Technology and Innovation 
  Foundation; submitted by Mr. Connolly and Ms. Miller.

  * News article from May 17, 2019, "Researchers alarmed by 
  Detroit's pervasive, expanding facial-recognition surveillance 
  program;" submitted by Ms. Tlaib.

  * Massachusetts Senate Resolution No. 1385 and House Resolution 
  1538; submitted by Mr. Lynch.

  * Washington Post article from 10-23-18, "Amazon met with ICE 
  officials over facial-recognition system that could identify 
  immigrants;" submitted by Ms. Ocasio-Cortez.

  * Letter dated 5-21-19 from EPIC; submitted by Mr. Cummings.

  * Letter dated 5-17-19 from POGO; submitted by Mr. Cummings.

  * Article on Geofeedia Case Study regarding Baltimore County; 
  submitted by Mr. Cummings.


 
                  FACIAL RECOGNITION TECHNOLOGY: PART I
                   ITS IMPACT ON OUR CIVIL RIGHTS AND
                               LIBERTIES

                              ----------                              


                        Wednesday, May 22, 2019

                   House of Representatives
                  Committee on Oversight and Reform
                                           Washington, D.C.

    The committee met, pursuant to notice, at 10:27 a.m., in 
room 2154, Rayburn Office Building, Hon. Elijah E. Cummings, 
(chairman of the committee) presiding.
    Present: Representatives Cummings, Maloney, Norton, Clay, 
Lynch, Connolly, Krishnamoorthi, Raskin, Rouda, Hill, Welch, 
Kelly, DeSaulnier, Plaskett, Khanna, Gomez, Ocasio-Cortez, 
Pressley, Tlaib, Jordan, Amash, Massie, Meadows, Grothman, 
Comer, Cloud, Gibbs, Higgins, Miller, Green, and Steube.
    Chairman Cummings. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time. I now recognize myself for 
five minutes for an opening statement.
    Today, we are having our first hearing of this Congress on 
the use of facial recognition technology. The Oversight 
Committee is uniquely suited to conduct a comprehensive review 
of this issue because we have extremely wide-ranging 
jurisdiction.
    We can look across all Federal agencies, state and local 
entities, and the private sector as well. I want to make clear 
at the onset that this is a bipartisan issue.
    Both the conservatives and liberals alike have real 
questions about when they are being monitored, why they are 
being monitored, who is monitoring them, and what happens to 
this information after it is collected.
    We have been working closely with the ranking member, Mr. 
Jordan, and I sincerely appreciate his advice and his 
assistance and the assistance of his staff in bringing this 
hearing together.
    Facial recognition is a fascinating technology with huge 
potential to effect a number of different applications. But 
right now it is virtually unregulated.
    In 2016, the Government Accountability Office issued a 
report recommending that the FBI make numerous changes to its 
facial recognition data base to improve data security and 
ensure accuracy, privacy, and transparency.
    However, just last month GAO sent a letter highlighting six 
priority recommendations that the FBI has yet to fully 
implement. At the local levels, cities like Detroit and Chicago 
are rapidly expanding the use of facial recognition technology 
to track its citizens in real time.
    At the same time, other cities, like San Francisco, are 
going in completely the opposite direction, banning the 
government use of facial technology all together.
    Of course, we all see how private companies are using this 
technology more and more for advertisements, security, and a 
variety of different customer experiences.
    But again, there are virtually no controls on where this 
information goes. In 2017, our committee held a hearing to 
review the law enforcement use of facial recognition 
technology. As part of that hearing we found that 18 states 
have memoranda of understanding with the FBI to share their 
data bases.
    As a result, more than half of American adults are part of 
facial recognition data bases and they may not even know it. We 
also heard testimony that facial recognition technology 
misidentifies women and minorities at a much higher rate than 
white males, increasing the risk of racial and gender bias.
    This issue is very personal for me. My district includes 
Baltimore, where I have lived now my entire life. After the 
tragic death of Freddie Gray at the hands of the police in 
2015, my city took to the streets in anger, frustration, and 
grief.
    During that time, I also walked the streets of Baltimore 
along with religious leaders and people from our community. We 
walked together for two reasons: one, to protest this 
tremendous loss of life and, two, to urge our fellow citizens 
to find a peaceful resolution to this crisis.
    Later we learned that the police used facial recognition 
technology to find and arrest protestors. It is likely that I 
and other members of our community who were simply exercising 
our rights under the Constitution were scanned, identified, and 
monitored by using this technology.
    Think about what I just said. Whatever walk of life you may 
come from, you may very well be a part of this process. You 
could be at a rally supporting gun rights or protesting gun 
violence. You could be marching for the right to life or a 
woman's right to choose. You could be pressing for the repeal 
of the ACA or the expansion of health care.
    In all of these cases the government can monitor you 
without your knowledge and enter your face into a data base 
that could be used in virtually unrestricted ways.
    We need to do more to safeguard the rights of free speech 
and assembly under the First Amendment, the right to privacy 
under the Fourth Amendment, and the right of equal protection 
under the law under the Fourteenth Amendment.
    My hope is that today's hearing can be a broad review of 
these issues, and we are honored and thankful to have such a 
distinguished panel as we have today.
    On June 4, we will be having our second hearing on this 
topic and we will hear from law enforcement witnesses. After 
that I will be asking our subcommittees to conduct deeper dives 
on specific issues related to Federal law enforcement, state 
and local issues, and the private sector.
    Our goal with this review is to identify sensible and 
concrete recommendations, legislative or otherwise, that 
recognize the benefits of this technology to protect against 
this abuse.
    With that, I turn to our distinguished ranking member, Mr. 
Jordan, for his opening statement.
    Mr. Jordan. Mr. Chairman, thank you.
    This is a critical hearing on a critical issue. 
Congressional oversight on this issue, I think, is of paramount 
importance and I do want to thank you because this committee 
has a history of working in a bipartisan manner when it comes 
to civil liberties, when it comes to privacy rights, and you 
have been a champion on that and I applaud your efforts and I 
am glad that we have got this nice panel to have a good 
discussion this morning.
    A few years ago, we had a hearing on Stingray technology. I 
think some of you were at that hearing, if I remember 
correctly. But this is a technology where you have this device 
and instead of people's cell phones going to the tower it 
actually bounces off this device and folks' government can get 
your cell number and, frankly, know exactly where you are 
standing.
    And as the chairman mentioned, the potential for mischief 
when you think about folks exercising their First Amendment 
liberties at some kind of political rally, whether it is on the 
right or the left, as the chairman talked about, I think is 
scary.
    We learned in that hearing also that the IRS was actually 
involved in using this technology--the same IRS that a few 
years ago targeted people for their political beliefs. We found 
that--we found that very scary.
    Stop and think then, not just the cell phone now but 
actually facial recognition in real-time video, as the chairman 
talked about, that is a scary thought. That is 1984 George 
Orwell kind of scenario that I think troubles us all.
    So I am--I appreciate this hearing. I am glad that we are 
going to hear from our witnesses and get a chance to talk about 
this important subject and how, as the chairman said, it is 
virtually unregulated. But I think that, frankly, needs to 
change.
    And so with that, Mr. Chairman, I would yield back and I 
look forward to hearing from our witnesses in the discussion 
that will ensue.
    Chairman Cummings. Now I--thank you very much.
    Now I want to welcome our witnesses. Ms. Joy Buolamwini--
thank you--founder of the Algorithmic Justice League, and Mr. 
Andrew Ferguson, professor of law, University of the District 
of Columbia, David A. Clarke School of Law, Ms. Clare Garvie, 
senior associate, Center on Privacy and Technology, Georgetown 
University Law Center, and Ms. Neema Singh Guliani----
    Ms. Guliani. Guliani.
    Chairman Cummings. No, you go ahead and say it.
    Ms. Guliani. Guliani.
    Chairman Cummings. I did the best I could with what I had.
    Ms. Guliani. You did good.
    Chairman Cummings. Thank you very much.
    Who is a senior legislative counsel to the American Civil 
Liberties Union, and Dr. Cedric Alexander, former president, 
the National Organization of Black Law Enforcement Executives.
    If you all would please stand and raise your right hand and 
I will now swear you in.
    [Witness were sworn.]
    Chairman Cummings. Let the record show that the witnesses 
answered in the affirmative. Thank you, and please be seated.
    I remind you that the microphones are extremely sensitive 
so please speak directly into them. Make sure it is on when you 
speak.
    So without objection, your written Statements will be made 
part of the record. With that, Ms. Buolamwini, you are now 
recognized to give an oral presentation of your testimony.

   STATEMENT OF JOY BUOLAMWINI, FOUNDER, ALGORITHMIC JUSTICE 
                             LEAGUE

    Ms. Buolamwini. Thank you.
    Chairman Cummings, Ranking Member Jordan, and fellow 
committee members for the opportunity to testify. I am an 
algorithmic bias researcher based at MIT and I have conducted 
studies that show some of the largest recorded racial and skin 
type biases in AI systems sold by companies like IBM, 
Microsoft, and Amazon.
    You have already heard facial recognition and related 
technologies have some flaws. In one test I ran Amazon 
recognition even failed on the face of Oprah Winfrey, labeling 
her male.
    Personally, I have had to resort to literally wearing a 
white mask to have my face detected by some of this technology. 
Coding in white face is the last thing I expected to be doing 
at MIT, an American epicenter of innovation.
    Now, given the use of this technology for mass 
surveillance, not having my face detected could be seen as a 
benefit. But besides being employed for dispensing toilet 
paper, in China the technology is being used to track Uighur 
Muslim minorities.
    Beyond being abused, there are many ways for this 
technology to fail. Among the most pressing are 
misidentifications that can lead to false arrest and 
accusations.
    Just last month in Rhode Island, a Brown University senior 
preparing for finals was misidentified as a terror suspect in 
the Sri Lanka Easter bombings.
    The police eventually corrected the mistake but the damage 
was done. She received death threats and her family was put at 
risk. Mistaken identity is more than an inconvenience and can 
lead to grave consequences.
    At a minimum, Congress should pass a moratorium on the 
police use of facial recognition as the capacity for abuse, 
lack of oversight, and technical immaturity poses too great a 
risk, especially for marginalized communities.
    The Brown University senior, like me, is a woman of color 
under the age of 30. We fall into multiple groups that the 
technology repeatedly fails on the most, namely, people with 
nonwhite skin, women, and youth.
    Due to the consequences of failures of this technology, I 
decided to focus my MIT research on the accuracy of facial 
analysis systems.
    These studies found that for the task of guessing a gender 
of a face, IBM, Microsoft, and Amazon had errors of no more 
than 1 percent for lighter-skinned men.
    In the worst case, those errors rose to over 30 percent for 
darker-skinned women. Given such accuracy disparities, I 
wondered how large tech companies could have missed these 
issues.
    It boiled down to problematic data set choices. In 
evaluating benchmark data sets from organizations like NIST, 
the National Institute for Standards and Technology, I found 
some surprising imbalances.
    One NIST data set was 75 percent male and 80 percent 
lighter skin, or what I like to call a pale male data set.
    We cannot adequately evaluate facial analysis technologies 
without addressing this critical issue. Moving forward, the 
demographic and phenotypic composition of NIST benchmarks must 
be made public and updated to better inform decisionmakers 
about the maturity of facial analysis technology.
    The harvesting of face data also requires guidelines and 
oversight. Companies like Facebook have built facial 
recognition capabilities by training their systems using our 
face data without expressed consent. But regulations make a 
difference.
    As a result of GDPR, instead of the default, Facebook now 
makes facial recognition an opt-in feature for users in Europe. 
Americans should have the same assurances that they will not be 
subjected to Facebook facial recognition without consent.
    No one should be forced to submit their face data to access 
widely used platforms, economic opportunity, or basic services. 
Just this week, a man sued Uber after having his driver's 
account deactivated due to facial recognition failures.
    Tenants in Brooklyn are protesting the installation of an 
unnecessary face recognition entry system. New research is 
showing bias in the use of facial analysis technology for 
health care purposes and facial recognition is being sold to 
schools, subjecting children to face surveillance.
    Our faces may well be the final frontier of privacy. 
Congress must act now to uphold American freedoms and rights. 
At a minimum, Congress should require all Federal agencies and 
organizations using Federal funding to disclose current use of 
face-based technologies. We cannot afford to operate in the 
dark.
    Thank you for the invitation to testify and I welcome your 
questions.
    Chairman Cummings. Thank you very much.
    Mr. Ferguson?

 STATEMENT OF ANDREW G. FERGUSON, PROFESSOR OF LAW, UNIVERSITY 
  OF THE DISTRICT OF COLUMBIA, DAVID A. CLARKE SCHOOL OF LAW;

    Mr. Ferguson. Chairman Cummings, Ranking Member Jordan, and 
members of the committee, thank you for the opportunity to 
testify today.
    I am a law professor who studies the intersection of big 
data policing and Fourth Amendment freedoms. For the past 
decade, I have been studying how new surveillance technologies 
shape constitutional rights and police powers, and based on 
that work, I have a very simple message for you today.
    Congress must act--must act now to regulate facial 
recognition technologies because the case by case slow process 
of Fourth Amendment litigation is inadequate to address the 
rapidly changing world of mass surveillance.
    I have five main points.
    First, the Fourth Amendment will not save us from the 
privacy threat posed by facial recognition technology. The 
Supreme Court is making solid strides in trying to update 
Fourth Amendment principles in the face of these new 
technologies.
    But they are chasing an accelerating train and will not 
catch up. Only legislation can respond to the real-time threats 
of real-time technology.
    Second, the Fourth Amendment was never meant to be the sole 
source of government regulation. Instead, our entire 
constitutional system is premised upon Congress taking a 
leading role guided by and only in a rare instance overruled by 
our founding Constitution.
    Indeed, one Supreme Court justice in particular--Justice 
Samuel Alito--has explicitly and repeatedly welcomed 
congressional assistance in this area.
    In Riley v. California, Justice Alito said it would be very 
unfortunate if privacy protection in the 21st century were left 
primarily to the Federal courts using the blunt instrument of 
the Fourth Amendment.
    Third, the few steps the Supreme Court has made on the 
subject of locational tracking technologies offer guidance 
about how to avoid drafting a law that could get struck down on 
Fourth Amendment grounds.
    Just last year, the Supreme Court struck down provisions of 
the Stored Communications Act in Carpenter v. United States 
involving law enforcement acquisition of third party cell site 
records.
    Such acquisition, held the court, typically requires a 
probable cause warrant. So as Congress debates creating 
standards to regulate facial recognition technology, this 
Fourth Amendment floor should be a baseline consideration.
    Fourth, as Congress builds the scaffolding off that 
constitutional floor, we need to think about the technology not 
just through the lens of today but with an eye toward the 
expansion of surveillance technologies that will combine, 
aggregate, link, and share data in ways that will reshape the 
existing power dynamics of government and the people.
    We are not just talking about technological hardware--
cameras, computers, and tools--but systems of surveillance, in 
particular, Big Data policing systems that can process, store, 
and retrieve information in ways that has never been possible 
in past eras.
    Legislation must future approve privacy protections with an 
eye toward the growing scope, scale, and sophistication of 
these systems of surveillance.
    Finally, these Fourth Amendment questions must be coupled 
with a focus on First Amendment freedoms, civil rights, and 
fundamental fairness when it comes to public safety 
protections.
    The burden of surveillance technology has never been 
equally shared across socioeconomic or racial groups. 
Surveillance is both a civil rights issue and a civil liberties 
issue, and Congress needs to regulate with racial justice in 
mind.
    In my written testimony, I have carefully laid out the 
different types of facial recognition that Congress needs to 
address today. Generalized face surveillance, monitoring 
without any individualized suspicion, investigative face 
recognition targeted with individualized suspicion, and 
separately non-law enforcement or emergency uses.
    I have also attempted to analyze the Fourth Amendment 
implication to both face surveillance and face recognition with 
the conclusion, again, that the Fourth Amendment will not save 
us.
    It will not satisfactorily resolve the core privacy 
questions. I would like to emphasize two points here which 
arise from my rather lengthy constitutional and legal analysis.
    First, Federal legislation should be drafted to ban 
generalized face surveillance for all ordinary law enforcement 
purposes. Whether stored, real-time, or through third party 
image searches, building a system with a potential to 
arbitrarily scan and identify individuals without any criminal 
suspicion and to discover personal information about their 
location, interests, or activities can and should simply be 
banned by law.
    Second, Federal legislation should authorize use of face 
recognition for investigative targeting only on a probable 
cause plus standard, requiring an assertion of probable cause 
and a sworn affidavit, plus declarations that care was taken to 
minimize the unintended collection of other face images and 
that proper steps have been taken to document and memorialize 
the collection.
    This standard would apply to all face recognition including 
stored surveillance scans, real-time scans, third party image 
scans, and even government-collected image scans.
    In my written testimony, I try to defend these 
recommendations as a matter of constitutional law and 
technological reality, and hope they offer a way forward--a 
bipartisan way forward--with specific legislative 
recommendations.
    Last point. Unregulated facial recognition technology 
should not be allowed to continue. It is too powerful, too 
chilling, too undermining to principles of privacy, liberty, 
and security.
    I am happy to answer any questions.
    Chairman Cummings. Thank you very much.
    Ms. Garvie?

    STATEMENT OF CLARE GARVIE, SENIOR ASSOCIATE, GEORGETOWN 
     UNIVERSITY LAW CENTER, CENTER ON PRIVACY & TECHNOLOGY

    Ms. Garvie. Good morning, Chairman Cummings, Ranking Member 
Jordan, and distinguished members of the committee. Thank you 
for inviting me to speak to you today.
    Face recognition presents unique threats to our civil 
rights and liberties. I would like to raise three core points 
about face recognition and our constitution that I hope will be 
helpful as this committee continues to examine this powerful 
technology.
    First, face recognition gives law enforcement a power that 
they have never had before, and this power raises questions 
about our Fourth and First Amendment protections.
    Police can't secretly fingerprint a crowd of people from 
across the street. They also can't walk through that crowd 
demanding that everybody produce their driver's license.
    But they can scan their faces remotely and in secret and 
identify each person thanks to face recognition technology. 
Last year the Supreme Court in Carpenter noted that for the 
government to secretly monitor and catalogue every one of our 
movements across time and space violates our right to privacy, 
protected by the Fourth Amendment.
    Face recognition enables precisely this type of monitoring. 
But that has not stopped Chicago, Detroit, and other cities 
from acquiring and piloting this capability.
    The Supreme Court held in NAACP v. Alabama, Talley v. 
California, and others that the First Amendment protects the 
right to anonymous speech and association.
    Face recognition technology threatens to up-end this 
protection. Law enforcement agencies themselves have 
acknowledged this, cautioning that the technology could be used 
as a form of social control, causing people to alter their 
behavior in public, leading to self-censorship and inhibition.
    But that didn't stop the Baltimore County Police from using 
face recognition on the Freddie Gray protests in 2015.
    Second, face recognition makes mistakes and its 
consequences will be borne disproportionately by African 
Americans.
    One, communities of color are disproportionately the 
targets of police surveillance, face recognition being no 
exception. San Diego found that their police used face 
recognition up to two and a half times more on African 
Americans than on anyone else.
    Two, people of color are disproportionately enrolled in 
police face recognition systems, thanks to being over 
represented in mug shot data bases that the system is run on.
    And three, studies continue to show that the accuracy of 
face recognition varies depending on the race of the person 
being searched. Face recognition makes mistakes and risks 
making more mistakes, more misidentifications of African 
Americans.
    A mistake could mean you are accused of a crime you didn't 
commit, like the Brown University student erroneously 
identified as one of the Sri Lankan bombers earlier this month.
    One of this country's foundational principles is equal 
protection under the law. Police use of face recognition may 
not comport with this principle.
    Third, left unchecked, current police face recognition 
practices threaten our due process rights. My research has 
uncovered the fact that police submit what can only be 
described as garbage data into face recognition systems, 
expecting valuable leads in return.
    The NYPD submitted a photo of actor Woody Harrelson to find 
an unknown suspect in a beer theft. They have submitted photos 
of a suspect whose eyes or mouths have been cut and pasted in 
from another person's photo, essentially fabricating evidence.
    Agencies submit drawings of suspects in places of photos as 
well, despite research showing that this will not work. Worse, 
officers at times then skip identification procedures and go 
straight to arresting someone on the basis of a face 
recognition search.
    This practice runs counter both to common sense and to the 
departments' own policies. And these practices raise serious 
concerns about accuracy and the innocence of the person 
arrested because of a face recognition search.
    But defendants are left in the dark about all of this, 
often never told that face recognition was used to help 
identify them. These systems produce Brady material--
information that, under our constitutional right to due 
process, must be turned over to the defense. But it is not.
    For all these reasons, a moratorium on the use of face 
recognition by police is both appropriate and necessary. It may 
be that we can establish common sense rules that distinguish 
between appropriate and inappropriate uses, uses that promote 
public safety and uses that threaten our civil rights and 
liberties.
    But face recognition is too powerful, too pervasive, too 
susceptible to abuse to continue unchecked.
    Thank you so much for your time. I look forward to 
answering questions.
    Chairman Cummings. Thank you very much.
    Ms. Guliani?

 STATEMENT OF NEEMA SINGH GULIANI, SENIOR LEGISLATIVE COUNSEL, 
                 AMERICAN CIVIL LIBERTIES UNION

    Ms. Guliani. Thank you for the opportunity to testify today 
on behalf of the ACLU.
    Law enforcement across the country, including the FBI, 
continue to expand the use of face recognition without 
legislative approval, absent safeguards, and, in most cases, in 
secret.
    It is time to hit the pause button. Congress must intervene 
to stop the use and expansion of this dangerous technology 
until we can fully debate what if any uses should be permitted 
by law enforcement.
    I want to be clear. Use of this technology is already 
resulting in very real harms.
    Chairman Cummings, in your opening statement you discussed 
the use of face recognition at the Freddie Gray protests in 
Baltimore and, like you, I share concerns about the impact on 
our First Amendment rights.
    But it is not the only disturbing example. In Florida, 
there is the case of Willie Lynch, an African-American man 
arrested and convicted of a $50 drug sale. In his case police 
relied on a low confidence match of a poor quality photo that 
was secretly taken, and now Mr. Lynch cannot even get key 
information about the reliability of the algorithm used in his 
case so that he can challenge his conviction.
    I want to highlight three reasons why I think it is 
particularly urgent that Congress act now and then offer two 
recommendations for areas where additional oversight is needed.
    So why is this issue so urgent? One, we have never seen 
anything like this technology before. The U.S. reportedly has 
over 50 million surveillance cameras. This, combined with face 
recognition, threatens to create a near constant surveillance 
state.
    Even more, right now police are often exploiting large-
scale data bases like driver's license repositories for face 
matching. This impacts the rights of everyone in these data 
bases, and we don't have the option of simply leaving our face 
at home to avoid being surveilled.
    Two, this technology is more likely to harm vulnerable 
communities, including communities of color. Studies have found 
that face recognition is less accurate on certain subgroups 
including women and people with dark skin.
    The ACLU tested Amazon's face recognition product, matching 
Members of Congress photos against 25,000 mug shots. There were 
28 false matches including Representatives Gomez, DeSaulnier, 
and Clay, who sit on this committee.
    Forty percent of the false matches were members of color. 
But even if this technology was 100 percent perfect, it is not 
being used in the perfect world. It is being used in the real 
world, and in the real world, poor communities and communities 
of color are over policed, they are more likely to be stopped, 
arrested, and to have force used against them.
    These same disparities are likely to extend to the use of 
face recognition and heighten the risks associated for the 
errors.
    Three, this technology is not being used consistent with 
the Constitution. Face recognition is potentially even more 
invasive than the warrantless tracking that the Supreme Court 
found unconstitutional in the Carpenter case.
    Yet, it is being used without a warrant and without other 
protections. Additionally, the government is not complying with 
its notice obligations. Over a 15-year period where the 
Pinellas County Sheriff's Office used face recognition in 
investigations, the county public defender reported never once 
receiving information as exculpatory evidence, which is 
required by the Supreme Court's Brady decision.
    As we debate this issue, we must do so with complete facts. 
Thus, I urge the committee to investigate two things. One, how 
is ICE, the FBI, and other Federal agencies using this 
technology?
    When it comes to face recognition, the FBI has broken more 
promises than it has kept. It has not fully tested the accuracy 
of the systems it uses, nor does the agency appear to be 
complying with Constitution. Yet, the agency is now reportedly 
piloting Amazon's face recognition product.
    ICE similarly has met with Amazon representatives and also 
appears to use CBP and State Department systems. But we know 
little else. The committee should examine these issues.
    Two, the committee should look at companies that are 
aggressively marketing this technology to the government, 
including how accurate their technologies are and what 
responsibility they take to prevent abuse.
    Companies are market this technology for serious uses like 
identifying someone during a police encounter, and we know far 
too little. For example, Amazon has even refused to disclose 
who it sells this technology to and companies like Microsoft 
and FaceFirst have so far not received significant 
congressional attention.
    There are efforts across the country to stop this dangerous 
spread of this technology. San Francisco has banned the use by 
city departments and Amazon shareholders are today taking the 
unprecedented step of voting on a resolution that would stop 
the company from selling this technology to the government and 
force it to study the human rights impacts.
    Congress should follow these good examples and put in place 
a moratorium on law enforcement use. I look forward to 
answering your questions.
    Chairman Cummings. Thank you very much.
    Mr. Alexander?

   STATEMENT OF CEDRIC ALEXANDER, FORMER PRESIDENT, NATIONAL 
        ORGANIZATION OF BLACK LAW ENFORCEMENT EXECUTIVES

    Mr. Alexander. Good morning, Chairman Cummings and Ranking 
Member Jordan and----
    Chairman Cummings. I am sorry. Doctor. Doctor Alexander.
    Mr. Alexander. That is all right, sir.
    Chairman Cummings. After attending a number of graduations, 
I want to give you all your credit.
    Mr. Alexander. Yes, sir. Thank you very much.
    Chairman Cummings. All right.
    Mr. Alexander. And distinguished members, thank you for me 
having the opportunity to be here with you this morning. I am 
going to speak from the perspective of a 40-year police 
veteran, Chairman, someone who has led organizations both at 
the local state and Federal level.
    Based on a 2016 investigation by Georgetown Law Center on 
privacy and technology, at least a quarter of U.S. law 
enforcement agencies use facial recognition searches of their 
own data bases or those of other agencies in an attempt to 
identify, find, and arrest criminal suspects.
    As of 2016, at least 16 states permit the FBI to use the 
technology to compare suspects' faces with images of state-
issued IDs. Now, sometimes law enforcement uses facial 
recognition prudently and wisely, sometimes recklessly.
    On May 16, the Washington Post report that some agencies 
use altered photos, forensic artist sketches, and even 
celebrity look-alikes for fake facial recognition searches. 
Using artificial intelligence to confer on a highly subjective 
visual impression a halo of digital certainty is neither fact-
based nor just.
    But it is not illegal, for the simple reason that no 
Federal laws govern the use of facial recognition. At this 
point, law enforcement use of facial recognition is not only 
unregulated by law, it operates even without any consensus on 
best practices.
    Artificial intelligence systems do not invent results from 
thin air. They operate from data bases of identified faces in 
an attempt--an attempt to match one of those identified faces 
with the face of a suspect or subject of interest.
    An artificial intelligence system is only as good as its 
data bases. Yet, there is currently no standard governing the 
content of any agency's facial images data base.
    Who is included in it? Who knows. What we do know is that 
publicly available facial data bases fail to represent the size 
and diversity of the American population and are therefore 
inherently biased samples.
    Real-time video surveillances can identify criminal 
activity in progress. But for the purpose of investigation, 
what are the risks to Fourth Amendment guarantees against 
unreasonable search and seizure?
    And the legal standards should be required prior to facial 
recognition search. Answer--we don't know. And before we leave 
the Constitution, is there a basis to fear that the combination 
of widespread real-time video surveillance and spatial 
recognition, AI may infringe upon the First Amendment 
protection of free speech, assembly, and association. So far, 
this remains unanswered, barely even addressed.
    How accurate is facial recognition technology? The answer 
is it depends, and that is an unacceptable answer for law 
enforcement, the justice system, and the people of this 
country.
    Facial recognition works best from images and bright even 
lighting. Identifying partially turned faces of those poorly 
lit is like trying to read a badly smudged latent fingerprint.
    Real-time video surveillance often supplies poor quality 
images and result in erroneous identifications. One of those 
things that artificial intelligence would preclude a racial and 
other biases.
    In fact, the New York Times reported in February of last 
year facial recognition algorithms marketed by major software 
suppliers in this country were significantly more likely to 
misidentify the gender of black women than white men.
    Gender was misidentified up to 1 percent of the time in the 
case of light-skinned males and 35 percent of the time in the 
case of darker-skinned females.
    The problem with artificial--AI skin color bias is serious 
enough that a CBS report--news report on May 13 San Francisco 
is considering a citywide ban on facial recognition in all 
government agencies.
    Now, this seems to me to be an overreaction. But 
considering the current absence of law, regulations, or even 
generally agreed upon best practices, it is certainly an 
understandable overreaction.
    We human beings are hardwired by evolution to fear and 
suspect danger when confronting the unknown. The opaque, even 
secretive attitude of law enforcement with regard to facial 
recognition plays into that primal fear.
    The Georgetown Law Center on Privacy and Technology reports 
that defense attorneys have never received face recognition 
evidence as part of a Brady disclosure that--which legally 
which is that many of us know legally it is required disclosure 
of exculpatory or impeaching evidence that may prove the 
innocence of a defendant.
    Only a very small minority of law enforcement agencies 
disclose how, and how frequently, they use facial recognition. 
Very few agencies even claim to audit their personnel for 
improper use of facial recognition systems.
    Indeed, the vast majority of agencies do not have any 
internal oversight or accountability mechanisms to detect 
misuse. Neither Federal, state, nor most local governments 
subject police policies concerning recognition to legislative 
or public review.
    Secrecy in matters of constitutional rights, human rights, 
and civil rights provoke fear and suspicion.
    And last, like so many digital technologies, facial 
recognition was long ago--not long ago the stuff that we saw as 
being science fiction. Today, many of us carry in our pockets 
in the form of a smart phone that recognizes our face when we 
take it out to make a call or send a text.
    It has become a normal part--a normal part of 21st century 
living and most Americans have no problem or not trouble 
accepting that facial recognition can be a valuable tool in law 
enforcement.
    But without the judicious and just application of human 
intelligence including full disclosure, transparency, public 
accountability, prudent legislation and science-based 
regulation, the technology of artificial intelligence do not 
deserve to be called tools.
    They are, instead, blunt instruments and in the worst cases 
blunt instruments become weapons.
    Thank you very much.
    Chairman Cummings. Thank you very much.
    Ms. Hill?
    Ms. Hill. Thank you, Mr. Chairman, and thank you to all of 
you for being here. This is of particular interest to me 
because one of the communities in my district is planning on 
implementing facial recognition technology in its city within 
the coming months with thousands of cameras across the 
community.
    In Carpenter v. the United States, the court found that 
police violated the Fourth Amendment when they collected cell 
phone location data without a warrant.
    In that case, Justice Alito, in a dissent, wrote that 
Congress is a better arbiter of controlling lawful use of new 
technologies by police than the courts.
    Justice Alito wrote, ``Legislation is much preferable to 
the development of an entirely new body of Fourth Amendment 
case law for many reasons, including the enormous complexity of 
the subject, the need to respond to rapidly changing 
technology, and the Fourth Amendment's limited scope.''
    Ms. Garvie, can you speak to how quickly facial recognition 
technology is developing?
    Ms. Garvie. I can. Face recognition is developing 
incredibly fast. We must caution, though, against anyone who 
says that these algorithms are getting better, which means that 
the results of the systems will be getting better, because as 
we have seen, it doesn't matter how good an algorithm gets. If 
law enforcement agencies put unreliable or just wrong data in, 
they will not get reliable results out. These algorithms are 
not magic.
    Ms. Hill. Thank you.
    And Professor Ferguson, do you think the Supreme Court can 
rule quickly enough upon the use of these technologies as the 
cases arise to thwart constitutionally questionable uses?
    Mr. Ferguson. They can, but they won't do as good a job as 
Congress regulating it now. Justice Alito has repeatedly made 
that claim and I think he is correct to say that this kind of 
technology should be regulated first by Congress. The Fourth 
Amendment floor will exist and the Supreme Court will address 
it. But this body has the primary responsibility to regulate in 
this field.
    Ms. Hill. From your testimonies and your answers right now, 
it sounds like there is broad agreement that Federal 
legislation is necessary in order to prevent a confusing and 
potentially contradictory patchwork of regulation of government 
use of facial recognition technology.
    Just last week, San Francisco passed an ordinance barring 
police and other government agencies from using facial 
recognition technology. San Francisco's decision has attracted 
attention across the country and could be followed by moves 
from other local governments and at the same time we have local 
governments that are adopting this.
    The drafter of the San Francisco ordinance is pushing for 
additional bans in Berkeley and Oakland and a proposed 
Massachusetts state bill would ban government use of facial 
recognition systems.
    At the same time, many states have also partnered with the 
FBI to grant access to their collection of driver's license 
photos for use in face image searches. Needless to say, the 
maze of recognition across cities and states can be confusing 
to navigate.
    Citizens may be afforded certain protections from 
warrantless surveillance through the use of facial recognition 
in one state but then drive several miles and be subject to a 
completely different regime.
    Ms. Guliani, can you discuss the range of different 
standards we see across states?
    Ms. Guliani. I think by and large, when we are hearing from 
communities it is with a great deal of anxiety about face 
recognition. When communities know that this is being used, 
they are raising concerns that it has been done without 
community input, without clear rules, and without the right 
standards to protect First Amendment and other--you know, and 
other core values.
    So I think the trend is definitely in that direction. But I 
think, you know, one of the important things of this hearing is 
to ask the questions and have the debate, and until we do that 
we just shouldn't be using that technology for all of the 
concerns it raises.
    Ms. Hill. So if we are talking about a local government or 
another company or agency that is looking to implement 
something like this, what advice would you give at this point, 
given the lack of guidance--and I guess this question goes to 
all of you--and what recommendations do you have for us in this 
body to move quickly and to be able to set sort of a baseline 
of--you know, how local governments should operate at this 
stage?
    Ms. Guliani. I mean, the advice I would have is to not use 
the technology until there has been a legislative process and 
clear standards and rules. And you have seen this sort of pop 
up in a lot of cities around the country. It is called 
Community Control Over Policing Surveillance, right.
    This idea that we shouldn't put the cart before the horse. 
We should study the harms before you rule something out. That 
would be my greatest recommendation and I think that we should 
do that federally as well with this technology.
    Ms. Hill. Anyone else want to weigh in?
    Ms. Garvie. I would add that most state and local law 
enforcement face recognition systems have been purchased using 
Federal grant money, which means Congress has incredible power 
to actually decide how much transparency goes into implementing 
these technologies and what rules are in place as well.
    Mr. Ferguson. I think Congress has a role to set the floor 
and allow local governments and cities to build off that so you 
can have places like San Francisco. I think we have seen real 
leadership in local cities about democratic control over 
surveillance technologies.
    But I think that that is no reason not--to not have 
Congress also act.
    Ms. Hill. Thank you. And I know I am out of time, but will 
you be able to provide us with recommendations for that floor 
as kind of a follow-up to this?
    Mr. Ferguson. Yes. I attempted to do so in my written 
testimony and would be happy to work with the committee, going 
forward.
    Ms. Hill. Thank you.
    I yield back.
    Chairman Cummings. Thank you very much.
    Mr. Jordan?
    Mr. Jordan. Thank you, Mr. Chairman.
    Ms. Guliani, facial recognition system makes mistakes and 
those mistakes disproportionately impact African Americans and 
others of color. A facial recognition system appears to me to 
be a direct violation of Americans' First Amendment and Fourth 
Amendment liberties and a facial recognition system also seems 
to me to threaten, as Ms. Garvie said, Americans' due process 
rights.
    And all three of those things--all that happens in a 
country with 50 million surveillance cameras. Is that accurate?
    Ms. Guliani. That is correct.
    Mr. Jordan. How does the FBI get the initial data base in 
the first place?
    Ms. Guliani. So the FBI has massive data bases and they use 
external partners as well. So one of the things they do is they 
use state driver's license data bases. I think, you know, up to 
18 states have been reportedly used by the FBI. They use 
passport photos.
    Mr. Jordan. Who made the decision to allow the FBI to 
access those 18 or 19 states' DMV data bases?
    Ms. Guliani. Apparently there were conversations and 
memorandums between those states. But in one state, for example 
in Vermont, it was actually against state law and ultimately 
the attorney general had to suspend that use.
    Mr. Jordan. So my question is, again, did the state 
legislature and the Governor actually pass legislation saying 
it was okay for the FBI to access every single person in their 
state who has a driver's license? Did that happen in those 18 
or 19 states that gave that permission to the FBI?
    Ms. Guliani. No, and that is the problem. This was all in 
secret, essentially.
    Mr. Jordan. So some unelected person at the FBI talks to 
some unelected person at the state level and they say yes, go 
ahead--here is--in the case of Ohio we have got 11 million 
people. Most of them drive. Here is 10 million folks who you 
can now have their--have this data base?
    Ms. Guliani. Right, and the people who wanted a driver's 
license many times didn't know these systems were operating 
either.
    Mr. Jordan. That was my next point. And the individual 
themselves did not get permission. Is that right?
    Ms. Guliani. That is exactly right.
    Mr. Jordan. So the individual didn't get permission. Were 
there any kind of notifications at the time they go in to get 
their picture and get their driver's license, oh, at my four 
years I got to get my new tag, my--or my new license--any type 
of information given to them, oh, by the way, this may go to 
the FBI?
    Ms. Guliani. You know, I think by and large people have 
been unaware of these systems and how they operate.
    Mr. Jordan. So the individual is unaware. The people they 
elect to represent them in their state government did not make 
the decision. That information is going to the FBI, which 
scares me, particularly in the context of--I mean, you can use 
your examples.
    Some people would say do you really want J. Edgar Hoover 
having this capability. I would argue today do we really want 
someone like Peter Strzok with the things we have learned that 
he engaged in and the bias that he had, and no one--no one in 
an elected position made the determination?
    Ms. Guliani. That is right.
    Mr. Jordan. Okay. Now, when the FBI has this and they are 
going to access this data base, what kind of standard do they 
have to put in place before they can access it? Is there any 
type of probable cause?
    Any type of--any type of process, due process, whatever you 
want to call it? Anything they go through before they can 
access the data base?
    Ms. Guliani. They don't have to get a warrant or meet a 
probable cause warrant standard, and I think there are 
questions that they aren't even notifying people in cases where 
it is relevant in their case.
    Mr. Jordan. Okay. Fifty million cameras, violation of 
people's First Amendment, Fourth Amendment liberties, due 
process liberties, all kinds of mistakes.
    Those mistakes disproportionately impact African Americans, 
and no due process. No elected officials gave the okay from the 
states for the Federal Government or the FBI to use it.
    Does the FBI share any of this information with other 
Federal agencies?
    Ms. Guliani. They have partnerships with Federal agencies, 
for example, like the State Department to scan through their 
passport photos.
    But, frankly, we don't know very much about how other 
Federal agencies are using----
    Mr. Jordan. Do we know if the IRS has access to this kind 
of information? Can they--do they have any kind of partnership 
with the FBI or any other Federal agency to access this data?
    Ms. Guliani. I don't know the answer to that question with 
regards to the IRS.
    Mr. Jordan. That scares me--scares me as well.
    So I guess the fundamental question is I think you are all 
there. There should probably be some kind of--some kind of 
restriction.
    Mr. Ferguson, I think you have said we should just ban it, 
right?
    Mr. Ferguson. I think we should ban face surveillance, 
which is the use of these technologies without any kind of 
individualized suspicion and I think there should be regulation 
about face recognition technologies in certain ways.
    But I do think that there are members of this panel who 
believe that at this moment there should be a moratorium, and, 
again, my position is if we are not going to regulate we should 
push the pause button on this technology now because it is as 
dangerous as you are expressing.
    Mr. Jordan. Seems to me it is time for--it is time for a 
time out. Time out. Fifty million cameras, real concerns. I 
guess what troubles me too is just the fact that no one in an 
elected position made a decision on the fact.
    These 18 states--I think the chairman said this is more 
than half the population of the country. That is scary, 
particularly in light of what we see. You got to remember the 
framework.
    It was just, what, eight years ago the IRS targeted people 
for their political belief. They did it. We know what--you 
can--it doesn't matter what side of the political spectrum you 
are on. This should concern us all and this is why I appreciate 
the chairman's work on this issue and the bipartisan nature of 
this hearing.
    With that, Mr. Chairman, I yield back.
    Chairman Cummings. Just to clarify what the ranking member 
said, Ms. Buolamwini, you were recommending a moratorium. Is 
that right?
    Ms. Buolamwini. Yes, I was.
    Chairman Cummings. Until what? Until what? Until we can 
pass legislation? Is that it?
    Ms. Buolamwini. Until there is sufficient scientific 
evidence that shows that these technologies have reached 
maturity, because with what we know with human-centric computer 
vision systems, as they are based on statistical methods, there 
is no way that the technology will be 100 percent flawless and 
there are tradeoffs that need to be made.
    Yet the academic research just doesn't yet exist to say 
this is what it looks like for it to meet meaningful 
thresholds.
    Chairman Cummings. All right.
    Yes, Ms. Norton?
    Ms. Norton. Thank you very much, Mr. Chairman, for this 
hearing.
    I must say I think we are already a little bit pregnant and 
I agree with the ranking member, and we have got these cameras 
everywhere. We are a little late in saying, well, you really 
shouldn't be surveilling people when there is nowhere that we 
don't surveile people.
    I thank Ms. Guliani. I remember the ACLU when we first 
began to surveile people raise the issue of, you know, is this 
really constitutional? Is this really right? I don't know if it 
was--it was ever challenged and got to court.
    I must say this takes me back to my days as a law professor 
because all kinds of hypotheticals occur to me.
    I got to ask you, Mr. Ferguson--maybe Ms. Guliani--is there 
a difference between misidentifying people using facial 
technology and misidentifying people which happens all the time 
so that the police draw in people based on people saying, that 
is who I saw?
    What is--what is the difference? How are we to argue that 
in court?
    Ms. Guliani. Sure. I mean, I think one of--the big 
difference is--differences is with an eye witness you can put 
them on the stand and you can say, look, were you 800 feet 
away? Were you intoxicated?
    With algorithms, defendants aren't getting information 
about the algorithm. They can't put them on the stand in the 
same way and a lot of times this technology is being presented 
as if it is perfect when it is not.
    Ms. Norton. Let me ask you about police encounters. Suppose 
the police stop you for speeding. Now, there is some probable 
cause there. He saw you. You can contest it.
    Can he put your photo in a data base that the police have 
having already had probable cause to stop you? Can he take your 
picture and say, okay, you can show up in court but this is for 
our data base?
    Mr. Ferguson. Right now, the police officer can because 
there is no regulations on any of this. The concern is that 
that may not be the way we want to go forward and might be a 
reason to actually have this kind of regulation.
    That is a use. There are companies that literally sell that 
technology for that reason and it is, again, a reason to act.
    Ms. Norton. I raise that--I raise that hypothetical--a law 
professor's hypothetical because I think we are already doing 
what we are already afraid of and that we ought to look very 
closely at regulation. Watch out because you will be regulating 
stuff that is already done by law enforcement and that nobody--
and that we have given a pass to.
    I wonder, Professor Ferguson, if you have any sense of how, 
particularly since there has been recent Supreme Court--Supreme 
Court decision on cell phone location data, any sense how 
today's conservative Supreme Court would rule on facial 
recognition technology.
    Mr. Ferguson. I think in certain uses when you are talking 
about a system of cameras that can track where you go, the 
principles that the Supreme Court, including Chief Justice 
Roberts, was concerned about, this idea of tracking, this idea 
of aggregating personal information, this idea of the 
permanence.
    So you can go back and look and see where people have gone 
because this footage is available and you can track where you 
have been at every moment. This idea that we don't like 
arbitrary police powers or permanent police powers all speaks 
to the fact that the Supreme Court, if faced with the right 
case, might see this as a Fourth Amendment violation.
    Unfortunately, these cases take a long time to get there. 
Unfortunately, that it would be, you know, relying on the 
Fourth Amendment may not be the place we want to be and I think 
that Congress has the opportunity to act now to sort of 
forestall our reliance on any number of the Supreme Court 
justices.
    Ms. Norton. Particularly in light of the issues raised by 
the ranking member, I mentioned that this monitoring--he 
mentioned this monitoring by facial recognition has been done 
really on a mass scale over time and we have let his happen.
    Can this--do you think that there is a violation of the 
Fourth Amendment if in doing the very monitoring that is done 
now, for example, if you go--if we have inauguration on the 
Mall, that monitoring is done all the time. That is monitoring 
or the use of technology on a mass scale.
    If it is done over time and it is a part of regular 
surveillance for the safety of those involved, do you think the 
court would see that monitoring over time as unconstitutional?
    Chairman Cummings. The gentlelady's time has expired but 
you may answer the question.
    Ms. Guliani. I mean, I think the Supreme Court's Carpenter 
decision is applicable to some of the uses of face recognition. 
Like when you mentioned tracking people over long periods of 
time, I think in that case the court said that warrantless 
tracking of that nature was unconstitutional and I think that 
there are also significant First Amendment concerns, for 
example, if there was a policy of identifying every single 
protestor every time they went to a protest, right.
    I do think that there is strong case law that would raise 
constitutional concerns with that. But, fundamentally, you 
know, the Carpenter case was decided two decades after we all 
started using cell phones.
    So it takes time for these things to work through the 
system and it is harder when people aren't receiving notice so 
that they can raise these concerns to judges.
    Chairman Cummings. Mr. Alexander, I noticed that you were 
trying to answer the question, too. Were you trying to answer 
the question?
    Mr. Alexander. Yes. To Congresswoman Norton, you know, the 
question you raise is a very good one so I am going to respond 
to it from a law enforcement perspective.
    Ms. Norton. Thank you.
    Mr. Alexander. For me, and I am quite sure for many of my 
colleagues across the country, this technology that we are 
referring to can be very valuable in terms of keeping our 
communities and keeping our country safe.
    There are opportunities for that. The problem that has 
occurred it is kind of like the horse that have already gotten 
out the gate and now we are trying to catch up with it, because 
if you think about the vast utilization of facial recognition 
that is going on and the questions that we are posing today are 
going to come with a great deal of challenges.
    I kind of cringe in some ways when I hear my colleagues 
here respond to maybe there should be a complete halt--a 
moratorium on facial recognition. I am not sure if that is the 
answer.
    What I am more concerned about is the failed use and the 
misuse of the technology and how do we acknowledge that and how 
to we differentiate between when it is being used correctly and 
what it is not.
    But here is the problem I have for policing in this country 
as it relates to this technology. The police end up being the 
end user of a technology that is created by some software 
technology firm somewhere.
    I go out. I use the technology. If I am not properly 
trained, if I am not properly supervised, if there is no 
policy, there is no transparency that I am sharing with people 
in my community about how and when this technology is being 
utilized and then something goes awry, then I, the end user--
that police chief, that police department--end up being the bad 
guy, and God knows that is one thing that policing don't need, 
considering the environment that we are already in trying to 
build relationships between police and community.
    So there is a place for this technology. But I think, more 
importantly, to me and I am quite sure for many of my 
colleagues that are out there is that I need to be able to make 
sure that I can train my people adequately.
    These software companies need to not just pass this 
technology to me; I need to be sure that my folks are trained. 
There is ethics. There is morals that goes along with it. There 
is policy. There is standards. There is good practices that we 
know and we feel good about.
    But I am not certain if a total moratorium in light of the 
fact that we still live in an environment where we are under a 
great deal of threat we still can utilize this technology. But 
it has to be in a way right now how do we do that while work 
trying to develop some standards.
    Chairman Cummings. Thank you very much.
    Mr. Cloud?
    Mr. Cloud. Thank you, Mr. Chairman, and Mr. Chairman, let 
me first of all say thank you for holding this hearing. This is 
an extremely important topic and the concerns the ranking 
member laid out I couldn't have said them any better, the 
concerns of information being shared without any sort of 
accountability by people who represent--who are elected to 
represent them.
    This is scary. I mean, we heard the stories about China, 
how China is already using this technology to target Muslims 
and Christians. We have known our own abuses recently in our 
own government of how agencies have gone--as was mentioned, the 
IRS, FBI recently.
    I mean, this is real scary stuff. Dr. Alexander, I liked 
your analogy of the horse and getting out of the gate too 
quick. I am of the tendency of let us air on the side of 
liberty while we don't know what is going on here.
    But in your thoughts, and maybe, Mr. Ferguson, if you can 
add to this, when would be limited appropriate use and at what 
point do we need to have the technology developed?
    Mr. Alexander. Well, I mean, for me, you know, that is a 
very tough question. But I think this hearing and the hearings 
that are going to follow, and maybe even some smaller sessions 
particularly with our Federal law enforcement, i.e., FBI, who 
utilizes this technology to fight off potential threats on a 
much larger scale, I think when you start talking about local 
policing in and of itself I think to have an opportunity to 
talk to some of the chiefs across the country in terms of how 
they are using this technology and how they think it could best 
benefit them if we can develop some limited framework in which 
they can operate from and maybe not as vast that it is now 
because it certainly is a serious issue and concern and problem 
that we have.
    It is not as transparent as it should be and it certainly 
is going to create a great deal of angst and anger among 
Americans in this country and particularly people who are--who 
are--their First and Fourth Amendments are violated.
    Mr. Cloud. Sure.
    Mr. Alexander. And we are going to find ourselves in this 
kind of position where we don't want to be. So I think this is 
going to require further conversation certainly beyond today. 
But it is something that we have to act on now in a temporary 
basis.
    But I am not sure if a total moratorium on this is going to 
be the answer to us because we still have a homeland we have to 
protect and there is still some value in facial recognition.
    Mr. Cloud. Thank you.
    Mr. Ferguson?
    Mr. Ferguson. In my written testimony I lay out what I 
think can be the way to regulate this, which involves a 
probable cause plus standards sort of based on the Wiretap Act, 
requiring an assertion of probable cause and a sworn affidavit 
to be able to use and search the data base for facial 
recognition, care to minimize the unintended collection because 
there would be other faces in this, the memorialization and 
documentation of how it is used so you could answer those 
questions about whether it had been used and by whom, and steps 
to make sure that there was a process in place to see what had 
happened and be able to check if there are abuses.
    Mr. Cloud. Thank you.
    Ms. Buolamwini--did I say that right?
    Ms. Buolamwini. Yes, you did.
    Mr. Cloud. Okay. You mentioned Facebook in your remarks and 
I find that interesting because I am extremely concerned about 
the government having this kind of unchecked ability. I would 
be curious to get your thoughts of corporations having this 
same sort of ability.
    And also, Ms. Garvie and Ms. Guliani, if you want to speak 
to that, too.
    Ms. Buolamwini. Absolutely. So you are looking at a 
platform that has over 2.6 billion users and over time Facebook 
has been able to amass enormous facial recognition capabilities 
using all of those photos that we tag without our permission.
    What we are seeing is that we don't necessarily have to 
accept this as the default. So in the EU where GDPR was passed 
because there is a provision for biometric data consent, they 
actually have an option where you have to opt in.
    Right now we don't have that in the U.S. and that is 
something we could immediately require today.
    Ms. Guliani. I mean, just to add to that, it is certainly 
something where Federal legislation is needed. We can look to 
the state of Illinois for sort of biometric laws. They have a 
law on the books requiring consent to use biometric 
information.
    But very importantly, they also have a private right of 
action. So if Facebook or any other company violates my rights 
and uses my face image without my permission, I can take them 
to court, and that is a really important accountability 
mechanism.
    Ms. Buolamwini. The other point to bring up is the fact 
that oftentimes data is collected for one use and then ends up 
in another scenario.
    So a recent example of this is with Ever, a photo sharing 
company, where users uploaded images of their kids and, you 
know, graduations and so forth, and later on they found out 
that those photos were used to train facial recognition that 
the company now sold as Ever AI.
    So we definitely need data protections when it comes to the 
use, disclosure, and consent around biometric face data.
    Mr. Cloud. Thank you, Chairman.
    Chairman Cummings. Mr. Clay?
    Mr. Clay. Thank you, Mr. Chairman, and thank the witnesses 
for being here.
    You know, the use of facial recognition technology has 
already generated a heated debate on whether it is a necessary 
tool to combat crime or an unlawful breach of privacy.
    The technology identifies people's faces and runs them 
against a watch list of images which can include suspects, 
missing people, and persons of interest. But privacy 
campaigners have described the technology as Orwellian.
    I was allegedly misidentified using this technology along 
with 27 other Members of Congress--disproportionately black and 
brown members.
    So I have questions about the accuracy that protections 
against misidentification and, obviously, civil liberty issues.
    Ms. Guliani, I want to hear more from you about the testing 
of Amazon's recognition software. The ACLU alleges Amazon 
software incorrectly matched Members of Congress, identifying 
them as people who had been arrested for a crime.
    If Members of Congress can be falsely matched with a mug 
shot data base, what should be the concern for the average 
American about the use of facial recognition?
    Ms. Guliani. Sure. I mean, with regards to the tests, I 
think that one of the most interesting thing was that running 
the test cost us less than a large pizza. It was about $12.
    And we took photos of Members of Congress, really ideal 
conditions, right--portraits--matched them against mug shots 
and we found those 28 matches. These were independently 
verified.
    And I think that one of the things that is important to 
note is it is not just our test. It is other tests that have 
noted similar problems with Amazon software and other face 
recognition algorithms.
    Now, we just ran a test. But imagine this in the real 
world. Imagine you are arrested or convicted or you are pulled 
over by police and you are--they say, we identified you as this 
person, you don't even have the information to say, look, you 
are wrong--the algorithm got it wrong, and that is really the 
nightmare scenario that we are worried about and why we think 
that, you know, the prudent thing to do would be to hit the 
pause button.
    Let us get the information out there, understand the 
dangers, understand whether this technology is really the 
helpful--the way people say it is and then let legislatures 
like this decide.
    Mr. Clay. Let me ask you, has the ACLU shared its 
methodology on data sets used for the test of Amazon's 
recognition that resulted in false matches with criminal mug 
shots?
    Ms. Guliani. We had it independently verified by a Stanford 
professor. We elected not to release the mug shot photos for 
the privacy of those individuals. We didn't want to have their 
photos, you know, in newspapers, et cetera, when they were not, 
you know, public figures.
    Ms. Buolamwini. But I can say the Algorithmic Justice 
League, we tested Amazon recognition using the same methodology 
that we tested IBM, Microsoft, Face++.
    Our data set is publicly available under the right license. 
Our methodology came from my MIT thesis and was available over 
a year before we tested Amazon and also found that they had 
false--they had error rates of over 30 percent for darker-
skinned females and zero percent error rates for lighter-
skinned men.
    So it is the case that there is verifiable research that 
shows you have issues with Amazon recognition.
    Mr. Clay. And has any of that been corrected in the lab or 
through their technology?
    Ms. Buolamwini. So what we found with the first studies we 
did of IBM and Microsoft is that they did improve their 
accuracy disparities. But even when they approved they still 
performed better on men's faces than women's faces. They still 
performed better on lighter skin than darker skin. So even when 
it is closing we still see a bias.
    Mr. Clay. And, Doctor, you know what the collateral damage 
can be through misidentification and I have fought for years to 
free people from prison who were wrongfully convicted and that 
is where this is going because of lax rules and regulations and 
technology.
    Ms. Buolamwini. Absolutely, and we don't even have 
reporting requirements. At least in the U.K. where they have 
done pilots of facial recognition technology, there are 
reported results and you have false positive match rates of 
over 90 percent. There is a Big Brother Watch U.K. report that 
came out that showed more than 2,400 innocent people had their 
faces misidentified.
    And so this is building on what ACLU said, right. We 
already see this in the real world where performance metrics 
are required. We don't have any kind of requirements in the 
United States.
    Mr. Clay. All in the name of profits.
    Mr. Chairman, my time is up. I yield back.
    Chairman Cummings. Before we go to Mr. Massie, let me say 
this. As I listen to this testimony I am troubled by something 
you said, Dr. Alexander.
    It seems like we have a defective system. It is defective, 
and it--and so when you say that you are not--that it has good 
purposes, it also can be extremely harmful.
    And when you balance people's rights, that is a problem. I 
mean, so I don't know--in the law we constantly are trying to 
do a balancing act with law enforcement and everything.
    But when you guys have a product that is defective and 
reading wrong, that is a problem, and it has a chilling effect 
on our total population. I just want you mull over that because 
I am going to come back to you when I have my question.
    Mr. Alexander. Yes, I would like to respond to that.
    Chairman Cummings. Yes. I am going to come back to you.
    Mr. Massie?
    Mr. Massie. Thank you, Mr. Chairman.
    The Supreme Court case, Brady v. Maryland, held that the 
government is required to release to the defense potentially 
exculpatory evidence that they come upon when prosecuting the 
case and I am worried that facial recognition technology 
presents a threat to that.
    For instance, Ms. Guliani, if multiple photos are returned 
during a search of the data base to the FBI and they narrow it 
down to a single suspect, are they--does Brady require the FBI 
to share those other photos that were similar to the suspect in 
question?
    Ms. Guliani. Yes. I mean, certainly it could be exculpatory 
evidence to know, for example, that an algorithm has a 
reliability problem or that an algorithm returned, you know, 
similar photos with--indicating they can be the person.
    That could support a defense to say, look, I have been 
misidentified--there were other people who were similarly 
tagged by the system.
    And I think that one of the concerns is that we are not 
seeing Brady disclosures and we are not really seeing notice. 
The FBI has used this stuff hundreds and thousands of times. 
There aren't thousands of cases in the court where we see 
defendants being informed about this. So judges are not having 
even the opportunity to rule on some of these very critical 
issues.
    Mr. Massie. Well, one of the concerning things too is that 
when a human makes a identification or a false identification 
you can cross-examine the human--were they drunk, was it dark 
outside, how was their vision, do they have prescription 
glasses, were they wearing them--all of those things. But you 
can't cross-examine an algorithm.
    Ms. Garvie or Ms. Guliani or Mr. Ferguson--anybody here--
has the government been providing descriptions of how the 
algorithms work to the defense? Anybody?
    Ms. Garvie. They have--they have not. In speaking to public 
defenders around the country we have found that they will 
usually not know if the algorithm was used in the first 
instance.
    Law enforcement agencies don't typically have access to the 
training data or to how the algorithms work as well because 
these are private companies that have developed these systems, 
and it is considered a trade secret. So it may be that the law 
enforcement agency says they can't turn over. So we have not 
seen public defenders having access.
    On your point about Brady, face recognition systems are 
designed to return multiple matches. The Washington County 
Sheriff's Office gave an example where a person--a person with 
a 70 percent confidence was the person they ended up charging, 
even though the algorithm thought somebody else was at a 90 
percent confidence.
    Essentially, the algorithm was playing witness, saying that 
I am 90 percent confident it is this other guy, and yet the 
person who I am 70 percent confident is the guy was the one who 
was charged. That it quintessentially Brady evidence.
    Mr. Massie. I have got a couple minutes left. I want to 
pivot a little bit. We have talked about in the cases where 
facial recognition doesn't work, and it is very concerning, 
especially when it disproportionately affects minorities when 
these algorithms are defective.
    But I am worried about the case where they work 100 percent 
of the time where there are mistakes and nobody gets left out. 
Ms. Garvie, can you speak briefly to how China is using real-
time facial surveillance?
    Ms. Garvie. Sure. We see China as a bit of a roadmap of 
what is possible with this technology in the absence of rules, 
and in the absence of rules this is a system where everybody is 
enrolled in the back end and there are enough cameras to allow 
law enforcement to track where somebody is anytime they show 
their face in public, to upload their photo and see where they 
have been over the last two weeks, be that public rallies or an 
Alcoholic Anonymous meeting or a rehab clinic.
    That information is now available at the click of a button 
or the upload of a photo. That is what face recognition looks 
like with no rules.
    Mr. Massie. So do we have any evidence that any U.S. police 
departments or Federal agencies are doing real-time monitoring 
of events or large events or using streams from cameras and 
monitoring them today?
    Ms. Garvie. Our research has found that at least two major 
jurisdictions--Chicago and Detroit--have purchased this 
capability and have paid to keep--to maintain it.
    Chicago says they do not use it. Detroit did not deny that 
they were using it. Theirs is designed to operate with Project 
Green Light, which is specifically locations like, yes, gas 
stations and liquor stores but also churches and clinics and 
schools.
    Mr. Massie. Is there a minimum threshold of evidence or 
suspicion that is required before your face becomes one of the 
faces searched in real time or in one of these data bases--I 
mean, presently?
    Ms. Garvie. In no--in no jurisdiction there are rules 
around who ends up in the data base with few exceptions. In 
Missouri, for example, DMV records cannot be included. But, by 
and large, there are no rules around this.
    Mr. Massie. Thank you very much, Mr. Chairman. I yield back 
the balance of my time.
    Chairman Cummings. Mr. Rouda?
    Mr. Rouda. Thank you, Mr. Chairman.
    And I agree with you, Mr. Chairman. This is a difficult 
discussion as we try to balance our private rights with the 
potential proper use of facial recognition technology.
    I want to focus on three different areas, and the first one 
is getting the sense from the panel here are there some of you 
who believe that we just outright need to stop this technology 
from being used versus legislation on proper use?
    A second area I would like to talk about it is if we do 
agree proper use makes sense, some sort of definition around 
that for law enforcement versus private use, and then finally 
maybe talking about if there are violations of that proper use 
what we would consider appropriate penalties.
    So let us start with that first area, and I ask the whole 
panel is there anybody on the panel that flat out says that we 
need to stop this technology in its tracks as is, period?
    Ms. Buolamwini. Well, it definitely depends on the kind of 
technology we are talking about. So we not only have facial 
recognition being used by law enforcement. We have broader 
facial analysis capacities now being used in employment.
    A company called Higher View purports to do video analysis 
on candidates for a job to pick up verbal and nonverbal cues 
and they train on the current top performers within a 
particular company.
    There is a case where an Uber driver just had their account 
deactivated because Uber uses a face verification system to 
determine if you are actually the driver, and just last year 
you had transgender folks who were also kicked out of Uber 
because of these misidentifications.
    So that is a use case that is beyond law enforcement where 
I wouldn't necessarily say it is a flat out ban. But we need to 
be very specific about which use cases we are talking about.
    For law enforcement, as it stands right now I absolutely 
think there should be a moratorium because the technology 
hasn't reached maturity and we don't have regulations.
    Mr. Rouda. Did somebody else want to speak to this as well?
    Ms. Guliani. Certainly. I mean, I think I would say two 
things. One, there are going to be uses of this technology 
where we are going to want a flat-out ban, right--real-time 
tracking, use in protests, use in sensitive areas.
    And two, I think to determine what, if any, uses are 
permissible, we need the facts. You know, we referenced a U.K. 
study where there was a 95 percent inaccuracy rate. To me, that 
is a very relevant question as to whether we want this type of 
technology being used by law enforcement at all.
    So until we have those facts, I think it is hard to answer 
all the questions.
    Mr. Rouda. And that is a fair statement. My concern is that 
bad actors are always going to use the tools that they can 
access, and if they can access these tools even though we want 
to prohibit it from happening, they are going to access it.
    So my sense is better that we need to figure out what is 
the proper legislation for proper use of it and if we do move 
to that question--proper use, law enforcement versus private--
law enforcement has been using digital enhancement of photos 
for years and years and I don't think anybody is suggesting 
that that is stepping over the line. There was mistakes that 
are made all the time as well.
    And so my question is how do we make sure that law 
enforcement, in using this technology, is using it in the 
proper way?
    Mr. Alexander. Well, let me respond to that, and I think to 
your question--your first, second, and third question, quite 
frankly, because there is a string that goes between them--and 
it goes back to what I was saying at the beginning of this is 
there may be a place for law enforcement to be able to utilize 
technology--this technology.
    The problem is, is that the technology is developed by a 
software company. It is sold to a police department without 
proper training, without proper understanding by that 
department the utilization of it, and the unintended 
consequences.
    That becomes a real problem. We have to be able to train. 
We have to be able to understand the technology. We know that 
this technology has been given to police and when police were 
asked to describe how it is used they couldn't do so. That is a 
problem.
    And therefore, no, they should not be utilizing this 
technology. But going back to a question that was asked a 
moment ago, are there--are there times or have there been 
opportunities when this technology has proven to be valuable 
for law enforcement to keep communities safe.
    The problem is here is that we are trying to keep the 
communities safe, at the same time trying not to violate 
people's First and Fourth Amendment rights.
    They will rub up against each other and we somehow have to 
figure this out. But I don't think you can do one--just throw 
one out and just get--you can't throw the baby out with the 
bath-water is what I am trying to say.
    Mr. Rouda. Another quick question. Does this--does this 
technology--we see that there are mistakes. Is there a greater 
propensity for mistakes with the current technology than 
previous technologies, whether it is artist's renderings or 
photographs in general?
    Ms. Guliani. I think the concerns are different. You know, 
we have talked about how law enforcement can identify you from 
far away, right, in a traditional scenario where somebody asks 
me for my ID felt that it was harassment. I knew somebody was 
asking me for that information.
    I could have raised a complaint. And, frankly, the 
community would know and be able to raise that with their 
elected leaders.
    I think the secrecy of this technology is different. The 
scale is different. The cheapness is different. And so we have 
to address, I think, those fundamental threats before we can 
sort of talk about what are or aren't good uses.
    Mr. Rouda. Thank you, Mr. Chairman. I yield back.
    Chairman Cummings. Thank you.
    Mr. Comer? Mr. Comer?
    Mr. Comer. I just wanted to ask a couple of questions about 
facial recognition technology reforms. First question to 
Professor Ferguson. Should states and localities be able to 
enact their own facial recognition technology laws?
    Mr. Ferguson. I think the Federal Government should set the 
floor and I think that states and local governments can raise 
that floor and create more protections.
    Mr. Comer. Okay.
    Ms. Guliani, you testified that state and local governments 
have taken steps to ban or limit facial recognition. Could you 
speak on what those efforts look like across the spectrum?
    Ms. Guliani. Sure. In San Francisco, there was a recent 
vote to ban the use of face recognition by city governments. In 
Washington and Massachusetts, there have been--there has been 
legislation introduced that would put in place a moratorium to 
study the technology and not permit use until that study is 
complete.
    And there are 13 localities that have put in place measures 
that essentially require that before surveillance technology is 
deployed, like face recognition, there has to be a public 
process. It has to be voted on by the legislature and there 
need to be assessments to look at the privacy and civil 
liberties impact.
    Mr. Comer. So does all the panel agree that the Federal 
Government needs to set the floor before states and localities 
create their own rules and regulations with respect to this? Is 
that a consensus among everyone on the panel? Yes or no.
    Mr. Ferguson. I am not sure before. I think they both need 
to act because it is that serious. Both states and locals and 
the Federal Government need to act quickly.
    Mr. Comer. Okay. All right.
    Mr. Chairman, I would yield the balance of my time to the 
ranking member, Mr. Jordan.
    Mr. Jordan. I thank the gentleman for yielding.
    So we have got 50 million cameras in the country, a system 
that, as we said earlier, is--makes mistakes all the time. 
Those mistakes disproportionately hurt people of color. 
Violates First Amendment--I think violates First Amendment 
liberties, Fourth Amendment liberties, due process standards.
    No elected officials are weighing in on this so that is 
sort of the list. But then I also think there is this chilling 
impact, this intimidation concept that is out there, and it 
seems to me this is in some ways--maybe I will give this 
question to you, Professor.
    NAACP v. Alabama where, you know, disclosure--because this 
is going to be, like, constant disclosure. That, to me, as a 
lawyer, law professor, am I reaching or is there similarities 
to the whole intimidation that takes place when disclosure 
happens and this is going to be, in effect, a constant 
disclosure of what the heck you are up to?
    Mr. Ferguson. I think there is nothing more American than 
the freedom of expression and the freedom of association, and I 
think what we have seen is that this kind of technology can 
chill both of those--the ability to go out and protest in 
Baltimore or anywhere else, the ability to support an 
incumbent--you know, a political candidate who wants to go 
against--I mean, an upstart political candidate who wants to go 
against the incumbent.
    It is going to chill speech. It is going to chill 
association and we are not going to be able to act in ways that 
we used to be able to act with anonymity.
    Mr. Jordan. Would you say it is--would you say it is just 
as bad as when the state wanted to require this organization to 
disclose its members for intimidation reasons? We all know that 
was the case. That this is, in effect, the same darn thing?
    Mr. Ferguson. It is the same First Amendment problem, yes.
    Mr. Jordan. Ms. Guliani, do you agree?
    Ms. Guliani. Yes. I mean, I think that one of the 
fundamental concerns that we need to address is I don't think 
any of us want to live in a world where there is a camera on 
every street corner that says, you know, who you are and maybe 
your emotional state, right, and how do we prevent that 
surveillance buildup so that it doesn't look like some of the 
uses in China.
    And whatever, I think, framework is put in place if there 
is a framework put in place I think needs to address those very 
real concerns.
    And from my opinion, we don't have the solutions and we 
shouldn't be using the technology until we can be assured that 
people's rights can be protected.
    Mr. Jordan. Yes. Let us--let us at least have a debate with 
people who were actually elected versus unelected people just 
deciding.
    Again, Mr. Chairman, I just want to say thank you. I got to 
run to something else here. But I want to thank our panel and I 
want to thank you again for this hearing. We do need to do 
something and I would say sooner rather than later.
    Mr. Meadows. Will the gentleman yield?
    Mr. Jordan. Be happy to yield to my colleague.
    Mr. Meadows. So because I am going to run to the same 
meeting, let me just tell you, you have now hit the sweet spot 
that brings progressives and conservatives together, and I--
and, you know, and when you have a diverse group on this 
committee as diverse as you might see on the polar ends, I am 
here to tell you we are serious about this and let us get 
together and work on legislation.
    And it is--the time is now before it gets out of control, 
and I yield back.
    I thank the chairman.
    Chairman Cummings. Thank you very much, and we are--I think 
that we can get something done in a bipartisan way. That is 
music to my ears and I think it is a very serious issue. Thank 
you very much.
    Mr. Connolly for a consent request?
    Mr. Connolly. Thank you, Mr. Chairman.
    I would ask unanimous consent that the prepared testimony 
of the Information Technology and Innovation Foundation be 
entered into the record.
    Chairman Cummings. Thank you very much.
    Mr. Welch?
    Mr. Welch. Thank you, and I want to thank the witnesses.
    You know, oftentimes when there is a technology, as you 
pointed out, it will be used. However, the users see it to 
advance whatever their cause is, without any public input or 
any public limitations.
    And you have been doing the hard work while Congress has 
really not been paying much attention. So I just want to say 
thank you for the important work that you have done.
    Ms. Buolamwini--I am sorry--it was great to be with you at 
the conference on this at MIT and I see another conference 
member there as well.
    We have heard a lot of disturbing examples about mass data 
collection. I just want to--and I think your idea of a 
moratorium makes a lot of sense.
    And your view, as I understand it, is there ought to be 
affirmative consent, and how would that curb the effects of 
machine bias in the use of facial recognition?
    Ms. Buolamwini. So I believe there should be affirmative 
consent, meaningful transparency, and continuous oversight. 
Affirmative consent needs to happen because oftentimes these 
technologies are being used without our knowledge.
    The example of Higher View came up because we have 
algorithmic bias in the wild stories where people will say, I 
didn't even know this technology was being used.
    Affirmative consent matters when you are thinking about a 
case like what is happening with the tenants in Brooklyn where 
face recognition entry system is being installed against their 
will but at least you have public defenders who are coming up 
against them.
    So regardless of the bias or how well the technology works, 
there should be a choice. But second, we need to know how well 
the technology works and what my research has shown is that the 
standards from the National Institute for Standards and 
Technology aren't even reflective of the American people.
    So we have to start there to make sure that we even have a 
baseline for what is going on, and then there is continuous 
oversight because regardless of the accuracy, regardless of if 
there is consent, these systems, as the fellow panelists have 
mentioned, can be abused in all kinds of ways.
    Mr. Welch. Thank you. Thank you very much.
    And Ms. Garvie, in your report ``Garbage In, Garbage Out'' 
you cite an example where the NYPD, when looking for a suspect 
who stole from a local CVS, was unable to find matches and they 
used the celebrity Woody Harrelson as an effort to get the 
identification, how is this problematic use of facial 
recognition technology allowed to happen? Essentially, because 
there are no rules now?
    Ms. Garvie. It is allowed to happen because there are no 
rules and there is no transparency either to the public to 
decide whether this is an appropriate use of a technology or 
not but also to defense attorneys and to the court to say is 
this producing reliable evidence.
    It is not producing reliable evidence. But defendants 
aren't able to challenge it in court.
    Mr. Welch. And you also discussed the use of police 
sketches of, quote, ``art'' so there will be an artist's 
rendering of who they think it might be or--and how does that 
work with respect to protecting defendants?
    Ms. Garvie. That is right. So forensic sketches are 
submitted to face recognition systems in at least six 
jurisdictions around the country.
    This is, roughly, the equivalent of--well, face recognition 
is considered a biometric identification tool. Imagine if we 
had a fingerprint lab drawing fingerprints or drawing where a 
latent print's fingers--finger ridges ended with a pen, 
submitting that to search. That would be a scandal. That would 
e reasons for a mistrial or for convictions being overturned. 
So it is hugely problematic.
    Mr. Welch. Okay. Thank you. Thank you.
    Ms. Buolamwini, again, if the technology improves so that 
that the racial bias was, quote, ``eliminated,'' not that 
necessarily it will ever happen, would you still recommend 
mandating affirmative consent?
    Ms. Buolamwini. Even if you improve the racial biases, for 
example, there is a case reported by the intercept where IBM 
equipped the New York Police Department with video capabilities 
to search people by their skin type, by their facial hair, by 
the clothing that they were wearing.
    So you could also automate the tools for racial 
surveillance and racial profiling even if you made these 
accuracy disparities go away, which right now the statistical 
evidence does not support. So yes, you would still need consent 
in the use of these technologies.
    Mr. Welch. Thank you very much.
    Mr. Chairman, I yield back.
    Chairman Cummings. Thank you very much.
    Ms. Kelly?
    Ms. Kelly. Thank you, Mr. Chairman, for holding this 
hearing today on facial recognition technology.
    Last Congress, the IT Subcommittee held a series of 
hearings on artificial intelligence and in the white paper that 
I wrote with Rep. Will Hurd we discussed the issues of bias and 
the importance of algorithmic accountability and transparency.
    As facial recognition is used more in society, it is vital 
that this technology not perpetuate real-world biases that harm 
minority communities. Say your name for me because I want to 
make sure I say it right.
    Ms. Buolamwini. Buolamwini.
    Ms. Kelly. Ms. Buolamwini. Okay. What are some of the 
benefits that racial--that facial recognition technology can 
provide?
    Ms. Buolamwini. So one area that has been explored right 
now is the use of facial analysis technology in health care--
could we be able to maybe spot, let us say, something like a 
stroke or heart disease--other things that might be actually 
perceptive from the face.
    So that is the promise, and oftentimes what I see is the 
promise of this technology is not met by the reality. You have 
new research coming out from the University of Toronto that 
shows even for health care-based systems of facial analysis 
technology you are starting to see biases.
    So you get a bias when it comes to accuracy when you are 
looking at age or somebody has dementia versus not. So I am 
hopeful that research can continue to explore potential uses. 
But until we have shown that it actually meets the promise, it 
should not be used.
    Ms. Kelly. In your testimony you discuss the lack of 
mandated accuracy requirements that test the maturity of facial 
recognition technology. How do you believe this test should be 
conducted and who should approve the technologies as adequately 
mature?
    Ms. Buolamwini. Absolutely. Well, one thing that we have to 
acknowledge is when we are looking at facial analysis 
technologies, one metric--accuracy--isn't enough. Not only do 
we want to know how accurate a system might be but we want to 
know how it fails, right. Who are the false positives? Who are 
the false negatives?
    Right now in the U.S. we have the National Institute for 
Standards and Technology, which does mandate tests. There are 
voluntary tests around facial analysis technology. So that 
could be one agency that is employed to figure out what are the 
necessary metrics that could come in place.
    What we are seeing right now is the way that the systems 
are tested are very limited. So when I mentioned pale male data 
sets earlier on, we can actually have a false sense of progress 
if the evaluation standards that are meant to be the gold 
standards don't even represent everybody right now.
    So we need to change the way in which we evaluate facial 
analysis technology so we truly understand who it works for and 
who it fails on.
    Ms. Kelly. I am not sure how much time I have because--
Okay, now it is corrected, I guess.
    But should the use case dictate the level of maturity and 
should the government and private industry have different 
standards?
    Ms. Buolamwini. I definitely believe the use case matters. 
If you are using facial analysis to animate an emoji or to put 
on SnapChat filters that is a different case than if you are 
saying we are going to use facial analysis to infer your 
emotional engagement or problem solving ability to inform a 
hiring decision, which is what we are seeing with products 
coming out of Higher View. So the use case absolutely matters.
    Ms. Kelly. Ms. Garvie, you mentioned an EEF study where the 
authors recommended facial recognition and in quotes ``only be 
used to identify individuals already detained by law 
enforcement and under policies restricting its use in specific 
instances of criminal conduct.''
    Do you believe that this use would be an appropriate use of 
the technology for use today and are there any other safeguards 
that you would like to see implemented?
    Ms. Garvie. I do. Oh.
    Ms. Kelly. Also, before you answer that--I am getting my 
question--you and Dr. Alexander, as we talk about having 
legislation, who do you think should be at the table?
    Of course, we should be at the table but who else should be 
at the table? Because we are not the experts, so as we come up 
with rules and regulations.
    Ms. Garvie. I fundamentally believe it is up to communities 
to decide to take a close look at how this technology is being 
used, what its capabilities and limitations are and decide 
whether the risks outweigh the benefits.
    San Francisco has taken that look and decided that the 
risks do not outweigh those benefits. In my personal view, I 
think some communities will come out differently, will say that 
there are instances, probable cause where law enforcement needs 
to know who is in custody.
    Fingerprinting has failed. That may be an appropriate use 
for this technology. But fundamentally, that needs to be a 
decision made by legislatures, not by law enforcement agencies.
    Mr. Alexander. Yes, ma'am.
    Yes, ma'am. I certainly do think a couple of things. One 
here is that certainly you need to be at the table. The 
technology developer of that software needs to be at the table. 
Public safety needs to be at that table.
    ACLU needs to be at that table, and other legal persons as 
well, too, so that if we are going to utilize this technology 
in public safety, in law enforcement, I think one thing needs 
to be made clear to these software manufacturers is that if you 
are going to develop this technology it is going to have to 
meet a standard that you hear being articulated at these--at 
this table by the scientists and those in the legal communities 
that are here.
    It needs to meet that standard. If it can't meet that 
standard, then there is no place for it in our society. Police 
need to be at the table so they can clearly understand if you 
decide--your jurisdiction decide to pay for and acquire this 
technology, you are going to be held to a standard as well, 
too.
    Not just training, but the way in which you apply it, how 
it is applied, and you are going to be held responsible as a 
public safety agency to sharing in your local community how 
this technology was developed, why it was developed, and the 
use of it, and also where it may not be as effective as we 
think.
    Because this is a huge--this is a huge, very complicated 
convoluted piece of technology that may have some benefits that 
you have just heard but they also have a significant amount of 
challenges attached to them.
    Ms. Kelly. And are there a amount of hours that police 
departments or law enforcement are trained right now or is it 
just hit or miss?
    Mr. Alexander. You know, I can't say that specifically. But 
my sense it is kind of hit or miss because we know that there 
are agencies out there right now and I have the persons here at 
this table who can certainly attest to that, that this 
technology is introduced into those departments and there is 
very little training and certainly no policy development around 
it.
    And then when you ask those in those agencies, tell me 
about the technology and how it work, they can't do it and that 
is a real problem.
    Ms. Kelly. Thank you. I yield back.
    Chairman Cummings. You know, it is a--before I got to Ms. 
Miller, it is a shame, Dr. Alexander, the whole thought of 
people being arrested and losing their jobs and everything 
based on errors.
    Mr. Alexander. Right.
    Chairman Cummings. And that is a problem. One of the things 
that I question, too, is John Lewis--Congressman Lewis and I--
--
    Mr. Alexander. Yes, sir.
    Chairman Cummings [continuing]. are mistaken for each 
other. If I go out there right now, I guarantee you there will 
be at least five or six people that will call me John Lewis. 
And I have actually had him in my district where I live and 
they call him me. That is a problem. I mean, I am glad it was 
John Lewis--a good name.
    Ms. Miller?
    Ms. Miller. Thank you, Chairman Cummings and Ranking Member 
Comer, and to all of you all for being here today.
    As technology continues to evolve and grow, the question of 
proper uses for facial recognition in our society is becoming 
increasingly important.
    Ms. Garvie, how far out are we in the United States from 
having facial recognition technology that is 100 percent 
accurate on photos of people in all demographics?
    Ms. Garvie. I don't--I can't speak to the--where the 
technology is at. But I will say based on how law enforcement 
agencies use the technology it doesn't matter how good these 
algorithms get if low-quality images or the images of wrong 
people are submitted, which is what we are seeing at the law 
enforcement level.
    Ms. Miller. Are there any cities in the United States that 
are deploying real-time face surveillance?
    Ms. Garvie. We see Chicago and Detroit have both acquired 
the technology. We do not know the level to which it has been 
deployed.
    In 2013, Chicago did report back to the DHS, the funder of 
their system, that the capabilities were up and running. They 
have since said they do not use the capability. We don't know 
about Detroit.
    A handful of other agencies across the country--Los 
Angeles, the West Virginia Intelligence Fusion Center, and 
others--have either piloted or have looked to purchase this 
technology as well.
    Ms. Miller. Okay. Are there any Federal agencies, to your 
knowledge, that utilize real-time face surveillance?
    Ms. Garvie. The U.S. Secret Service is piloting a program 
around the White House complex as we speak. We do not know the 
degree to which the FBI has been piloting this. We do know they 
have acquired or have been using Amazon recognition, which is 
the same surveillance capability that Orlando has been piloting 
in real time. But there is no transparency into how and when 
they are using that.
    Ms. Miller. All right. To you and Ms. Guliani, can you 
discuss some of the wrongful arrest cases that have arisen as a 
result of the inaccuracy for the facial recognition?
    Ms. Guliani. Sure. I think that one of the concerns is that 
we don't even have a handle on the full scope of cases and that 
is because, No. 1, we are not seeing data about how often these 
algorithms are resulting in false matches, and No. 2, when 
defendants are being charged they are not necessarily being 
provided notice or given all the information.
    So the question you ask is a very good one but it is one 
that we don't actually have I think full data about.
    Ms. Garvie. I would echo that. I speak to public defenders 
a lot. There have been close to 3,000 arrests in New York made 
including the use of face recognition technology.
    Those 3,000 defendants were not told that face recognition 
was used. Maybe some of them were. A vast majority of them were 
not.
    Ms. Miller. Well, like Chairman Cummings, I have had many 
people tell me that they have seen my twin somewhere else and I 
think we all resemble someone else. So it is kind of scary.
    Have there been--can you see--can you set a Federal floor 
for minimum standards for the use of facial recognition 
technology and what would those Federal standards look like? 
Both of you.
    Ms. Guliani. I think that when we are having this 
conversation one of the questions we should be asking is, is 
there an alternative that is less invasive, right.
    We have talked about how face recognition is different and 
how it raises fundamental concerns with regards to our First 
Amendment rights, with regards to persistent and constant 
tracking.
    There are very real risks with this technology and we 
should be asking are there other alternatives that can serve 
the same needs that are less invasive and less concerning, and 
I think that that would be helpful to have as we are having 
this debate to determine what the standard should be and 
whether there are uses, if any, that should be permitted.
    Ms. Garvie. I would agree, and I think the constitutional 
risks that face recognition pose provide good guidance for a 
legislative floor--prohibitions on use that would violate the 
Fourth Amendment that would risk chilling free speech, that 
would affect the Fourteenth Amendment rights to due process and 
equal protection.
    Ms. Miller. That was my next question. So thank you.
    I yield back my time.
    Chairman Cummings. Ms. Ocasio-Cortez?
    Ms. Ocasio-Cortez. Thank you, Mr. Chair.
    Ms. Buolamwini, right now Amazon can scan your face without 
your consent--all of our faces without our consent--and sell it 
to the government, all without our knowledge, correct?
    Ms. Buolamwini. Yes.
    Ms. Ocasio-Cortez. And, you know, Mr. Chair, I would like 
to seek unanimous consent on how Amazon actually met with ICE 
officials over a facial recognition system that could identify 
immigrants. I would like to submit this to the congressional 
record.
    Chairman Cummings. Without objection.
    Ms. Ocasio-Cortez. Thank you so much.
    Ms. Garvie, in fact, it is not just Amazon that is doing 
this, right. It is Facebook. It is Microsoft. It is a very 
large amount of tech corporations, correct?
    Ms. Garvie. That is correct.
    Ms. Ocasio-Cortez. And do you think it is fair to say that 
Americans are essentially being spied on and surveilled on a 
massive scale without their consent or knowledge?
    Ms. Garvie. I would make a bit of a distinction between 
what Facebook and other companies are doing but yielding to Ms. 
Buolamwini for more specifics on this. I will say most of the 
law enforcement agency systems operate on DMV data bases or mug 
shot data bases. So information that has been collected by 
agencies rather than companies.
    Ms. Ocasio-Cortez. Great. Thank you. Thank you.
    And Mr. Ferguson, one the prime constitutional concerns 
about the nonconsensual use of facial recognition technology is 
rooted or alluded to in the Fourteenth Amendment, correct?
    Mr. Ferguson. That is correct. It is one of them.
    Ms. Ocasio-Cortez. And right now companies, governments, 
agencies can essentially steal or use your biometric data from 
you without your consent and this is outrageous, right, because 
this is America and we have a right to privacy. Isn't that 
right, Ms. Guliani?
    Ms. Guliani. That is absolutely right.
    Ms. Ocasio-Cortez. And Ms. Guliani, what was the Supreme 
Court case that identified the right to privacy?
    Ms. Guliani. It has been--I don't remember the original 
one. But, I mean, there has been a series of cases where the 
court has essentially said, look, with modern technology it 
shouldn't mean that we don't have Fourth Amendment rights.
    Ms. Ocasio-Cortez. Yes. And what was--was there a landmark 
Supreme Court decision that established that that we have seen 
recently?
    Ms. Guliani. You know, we have seen the Carpenter case 
where the court said that it was unconstitutionally--
unconstitutional to warrantlessly surveile individuals.
    We have seen cases where the court has also said that you 
can't search a cell phone without a warrant leading to an 
arrest.
    Ms. Ocasio-Cortez. And most specifically, with relation to 
the Fourteenth Amendment, it was Roe v. Wade that established 
the right to privacy. Is that correct?
    Ms. Guliani. Roe v. Wade--the right to privacy was 
addressed there as well.
    Ms. Ocasio-Cortez. Right. So, you know, we don't just 
have--because that right to privacy is alluded to. Part of the 
case in our right to privacy is that this doesn't just give us 
a right to my uterus.
    It gives me a right to my hand and my shoulders, my head, 
my knees, my toes, and my face. And so in some ways, part of 
the case, although it is not all of it--there is a great deal 
rooted in the Fourteenth Amendment with search and seizure--but 
in our right to privacy we also see here that it is--this is 
about our entire body--our right to our entire body and the 
similar principle that keeps a legislator out of my womb is the 
same principle that would keep Facebook and algorithms off of 
all of our faces. And so do you think there is a--it is fair to 
draw that connection?
    Ms. Guliani. I think that when we are talking about privacy 
it is important to think about more than our face, right. So we 
are seeing the FBI use things like voice recognition and gait 
recognition, all different types of biometrics that I think 
fundamentally raise some of the same privacy concerns that have 
been talked about by all the panelists today.
    Ms. Ocasio-Cortez. Thank you. Thank you so much.
    And Ms. Buolamwini, I heard your opening statement and we 
saw that these algorithms are effective to different degrees. 
So are they most effective on women?
    Ms. Buolamwini. No.
    Ms. Ocasio-Cortez. Are they most effective on people of 
color?
    Ms. Buolamwini. Absolutely not.
    Ms. Ocasio-Cortez. Are they most effective on people of 
different gender expressions?
    Ms. Buolamwini. No. In fact, they exclude them.
    Ms. Ocasio-Cortez. So what demographic is it mostly 
effective on?
    Ms. Buolamwini. White men.
    Ms. Ocasio-Cortez. And who are the primary engineers and 
designers of these algorithms?
    Ms. Buolamwini. Definitely white men.
    Ms. Ocasio-Cortez. So we have a technology that was created 
and designed by one demographic that is only mostly effective 
on that one demographic and they are trying to sell it and 
impose it on the entirety of the country?
    Ms. Buolamwini. So we have the pale male data sets being 
used as something that is universal when that isn't actually 
the case when it comes to representing the full sepia of 
humanity.
    Ms. Ocasio-Cortez. And do you think that this could 
exacerbate the already egregious inequalities in our criminal 
justice system?
    Ms. Buolamwini. It already is.
    Ms. Ocasio-Cortez. Thank you very much. I yield the rest of 
my time to the chair.
    Chairman Cummings. How so?
    Ms. Buolamwini. So right now, because you have the 
propensity for these systems to misidentify black individuals 
or brown communities more often and you also have confirmation 
bias where if I have been said to be a criminal that I am more 
targeted, so there is a case with Mr. Bah, an 18-year-old 
African-American man, who was misidentified in Apple stores as 
a thief and in fact he was--he was falsely arrested multiple 
times because of this kind of misidentification.
    And then if you have a case where we are thinking of 
putting let us say facial recognition technology on police body 
cams in a situation where you already have racial bias that can 
be used to confirm, right, the presumption of guilt even if 
that hasn't necessarily been proven because you have these 
algorithms that we already have sufficient information showing 
fail more on communities of color.
    Chairman Cummings. Mr. Grothman?
    Mr. Grothman. Okay. I guess this is probably for Ms. Garvie 
but it could be really for anybody.
    China makes a lot of use of this technology, correct?
    Ms. Garvie. Yes.
    Mr. Grothman. Could you let me know the degree to which it 
exists in China? And I believe they even kind of brag about 
selling this technology to other countries?
    Ms. Garvie. We probably don't know the full degree to which 
it is used. We do see face surveillance capabilities where the 
government is attempting to enroll all faces of all citizens 
into their data bases to be able to effectively identify where 
anybody is at a given time in addition to classify people by 
the characteristics of their face to try to be able to identify 
who is a Uyghur Muslim minority.
    Mr. Grothman. Okay. And I could tell Mr. Ferguson wanted to 
jump in there. Are they trying to sell this technology to other 
countries?
    Mr. Ferguson. Yes.
    Mr. Grothman. And for what purpose? When they go into--I am 
not sure which other countries they are selling it to, but when 
they go into another country, what are the benefits that they 
describe this technology as being used for?
    Mr. Ferguson. China has created a truly--a true 
surveillance state where they are able to use hundreds of 
millions of cameras and artificial intelligence matching of 
face recognition to identify people on the streets.
    And so for certain authoritarian governments that is very 
attractive there.
    Mr. Grothman. And why is it attractive?
    Mr. Ferguson. I think because it is a form of social 
control. One of the things that they have been doing is they 
have rolled it out to prevent jaywalking. So that one of the 
ways they do it is to say as people walk past the camera you 
will be shamed because you were a jaywalker.
    Mr. Grothman. Well, not just jaywalking. As I understand 
it, it is also used to monitor how people think or people who 
may think one way or another. Is that true?
    Mr. Ferguson. It is being used to surveile religious 
minorities and dissenting opinions and thus controlling the way 
they think and the way they react. And so that is, obviously, 
there are lots of human rights abuses that we have seen coming 
out of China.
    Mr. Grothman. Okay. So in other words, monitor the Muslims, 
and I can't remember what they call that group.
    Mr. Ferguson. The Uyghurs, yes.
    Mr. Grothman. Uyghurs. Uyghurs on the western end, and 
Christians----
    Mr. Ferguson. Yes.
    Mr. Grothman [continuing]. throughout the country. So we 
place them so that if there is a church that we know about we 
know exactly all who is going in there, and they sell this as 
a--I think they describe it as kind of--they have reached the 
perfect government.
    They have got a free market in the economy so it is a 
wealthy society but they have complete control about how people 
think and behave otherwise or do what they can to control it. 
Is that right?
    Mr. Ferguson. That is right, and the scariest thing is that 
technology could be rolled out on the streets of Washington, 
DC. tomorrow because there is no law saying that it couldn't 
be, and that is what we need to address.
    Mr. Grothman. Do you happen to know--I mean, I have read 
that they have tried to sell this--almost sell a form of 
government, but this is a big part of that form of government--
to other countries.
    Do you know any other countries specifically who are biting 
at this opportunity or is it just something they are starting 
out doing?
    Mr. Ferguson. I don't know as a political matter. I know as 
a technological matter this is a multi-billion dollar industry 
of cameras and algorithms and there is tremendous investment by 
the Chinese government in improving it.
    Mr. Grothman. Do you know any other countries they have--
have had success at selling this to?
    Ms. Buolamwini. So there is an example where you have a 
Chinese company called Cloud Walk that provide the government 
of Zimbabwe with surveillance technology and this enables them 
to have access to darker-skinned individuals. So you are 
starting to also see the emergence of what is being called data 
colonialism.
    Mr. Grothman. Okay. So in other words, they are telling 
Zimbabwe that they can do what China does. They can monitor who 
is here, who is there and----
    Ms. Buolamwini. But in exchange for something very 
valuable, which would be the dark-skinned faces to train their 
system so that they can then sell it, let us say, to the U.S. 
where you have dark-skinned individuals as well.
    Mr. Grothman. Well, I--as I understand it, though, the 
clear goal of a government using these, if, you know, as 
America becomes more intolerant, as we have micro-aggressions, 
as we, you know, begin to have politically incorrect gathering 
places--a gun show or something--is it something that we should 
fear that our government will use it to identify people who 
have ideas that are not politically correct?
    Ms. Garvie. Law enforcement agencies themselves have 
expressed this concern. Back in 2011 when the technology was 
really getting moving, a face recognition working group 
including the FBI said--and they said exactly that face 
recognition could be used as a form of social control, causing 
people to alter their behavior in public, leading to self-
censorship and inhibition. So this is something police 
departments themselves have recognized.
    Mr. Grothman. Thank you for having a hearing on this topic. 
It is very important.
    Chairman Cummings. Ms. Pressley?
    Thank you.
    Ms. Pressley. Thank you, Mr. Chairman.
    Last week, San Francisco became the first city to ban use 
of facial recognition technology. But a similar ban is being 
considered in my district, the Massachusetts 7th congressional 
District, by Somerville, Massachusetts, and it is the first on 
the East Coast to propose such a ban.
    Facial recognition technology has been used by law 
enforcement in Massachusetts since 2006 but there are concerns 
about due process, given the police and prosecutors do not 
notify defendants when the technology has been used in their 
cases.
    I do believe the Federal agencies should not use this 
technology without legislative authorization and these due 
process violations are a perfect example as to why.
    But companies have been pushing this technology on police 
departments, despite knowing that it works only 30 percent of 
the time. This puts many people, including women and people of 
color and young people, at grave risk of harm and underscores 
the need for congressional oversight.
    Ms. Buolamwini, first, I want to say I am so proud that AJL 
is in the Massachusetts 7th. You are based in Cambridge, 
correct?
    Ms. Buolamwini. We are.
    Ms. Pressley. So I am so glad that you call the 
Massachusetts 7th your home. In a New York Times article from 
June of last year titled, ``When the Robot Doesn't See Dark 
Skin,'' you describe how and why these inaccuracies exist. You 
refer to the, and I quote, ``coded'' gaze. Can you describe 
this phenomenon, for the record?
    Ms. Buolamwini. Sure. So you might have heard of the white 
gaze or you might have heard of, let us say, the male gaze, and 
these descriptions are descriptions of power--who has the power 
to decide.
    And so when I talk about the coded gaze I am invoking the 
male gaze and the white gaze and it is a question of whose 
priorities, preferences, and also prejudices are shaping the 
technology that we are seeing.
    So right now, the way I look at AI is we see this growing 
coded gaze that is mainly pale, mainly male, and doesn't 
represent the majority of society.
    Ms. Pressley. Thank you.
    Ms. Garvie, in your Georgetown report you found that, and I 
quote, ``There is no independent testing regime for racially 
biased error rates,'' unquote. Is this still the case today?
    Ms. Garvie. NIST has since then adopted looking at the 
differential error rates between race and gender in their 
studies. They have yet to look at the inter-sexual 
intersectional consequences of that. But they are starting to 
take a look.
    Ms. Pressley. Okay.
    And Ms. Buolamwini, are there any measures developers of 
this technology can take right now to increase the accuracy of 
their facial recognition systems?
    Ms. Buolamwini. Right now what we have seen in the research 
studies that have happened thus far to improve these systems 
tends to be around the kind of data that is used to train the 
systems in the first place.
    But we have to be really cautious because even if you make 
accurate facial analysis systems they can and will be abused 
without regulations.
    Ms. Pressley. All right. Very good.
    Ms. Guliani, in your testimony you raise the example of 
Willie Lynch who claims to have key details about the 
reliability of a facial recognition algorithm that led to his 
arrest and conviction.
    In his case it was a low confidence match of a poor quality 
photo. Can you talk about the challenges that individuals may 
take rebutting a face recognition match and how is it different 
than eyewitness identifications?
    Ms. Guliani. Sure. I mean, with an eyewitness you can put 
that person on the stand. You may raise questions about how 
good their eyesight is, how far away they are, whether they 
were intoxicated at the time they made that identification.
    It is quite different with face recognition. I think people 
are assuming that it is 100 percent accurate, and fundamentally 
a lot of individuals are not able to get information about the 
reliability of the algorithm.
    In the case you just referenced, that is still an ongoing 
case where Willie Lynch is fighting to get information about an 
algorithm that could be used to challenge his conviction.
    Ms. Pressley. Do you believe the FBI or other law 
enforcement agencies have adopted sufficient safeguards to 
prevent its face recognition technology from resulting in these 
civil rights abuses?
    Ms. Guliani. Absolutely not, and I certainly think this is 
an area where additional oversight is needed. When the FBI 
rolled out the system, they made a lot of promises.
    They made promises about accuracy. They made promises about 
testing. They made promises about protecting First Amendment 
rights. And now, years later, a lot of those promises have been 
broken.
    The agency has not acknowledged a responsibility to test 
the accuracy of systems it uses of external partners. There is 
questions about how accurate their systems are, and it doesn't 
appear that they have a high standard in place for when they 
are running face recognition searches.
    And I think all of those things are cause for concern and 
should really cause us to question whether the system should 
still be operating, given the lack of safeguards.
    Ms. Pressley. Thank you. I yield back.
    Chairman Cummings. Thank you very much.
    Mr. Amash?
    Mr. Amash. Yes, thank you, Mr. Chairman.
    The Supreme Court recognized recently that a person does 
not surrender all Fourth Amendment protection by venturing into 
the public sphere. Face recognition surveillance threatens to 
shatter the expectation Americans have that the government 
cannot monitor and track our movements without individualized 
suspicion and a warrant.
    It is difficult to comprehend the impact such surveillance 
would have on our lives. With face recognition technology 
deployed throughout a city, anyone with access to the data 
could track an individual's associations and public activities, 
including religious, political, medical, or recreational 
activities.
    Ms. Garvie and Ms. Guliani, could a government's access to 
this kind of data have a chilling effect on First Amendment 
activities and other constitutional activities and rights such 
as gun ownership, the free exercise of religion, the freedoms 
of speech and of the press and the right of the people 
peaceably to assemble and petition the government, and how 
could data gathered from face recognition surveillance be 
weaponized by the government against activities protected by 
the Constitution?
    Ms. Garvie. To your first question, absolutely. Yes. And 
this is something that law enforcement agencies themselves have 
acknowledged.
    In terms of how this can be used, the mere threat or fear 
of monitoring or identifying every single person at a protest 
or a rally, particularly around contentious or highly disputed 
concepts, could cause people to stay at home, to not have those 
conversations, to not engage in those discussions that are so 
valuable for the participation in an active democracy.
    Ms. Guliani. And we have seen examples where there have 
been requests for face recognition without cause. So in Vermont 
there was a case where there was request for a face recognition 
match even though the individual was not suspected of a crime. 
They were just the girlfriend of a fugitive.
    There was another case where the basis of the request was 
simply that someone had asked concerning questions at a gun 
store without any allegation that they had actually committed a 
crime.
    And so I think that speaks to the concern you are talking 
about, which is we don't want to live in a world where we can 
be identified without our knowledge secretly and on a massive 
scale, which is exactly what face recognition allows.
    Mr. Amash. Ms. Garvie and Professor Ferguson, even if we 
require law enforcement to get a warrant to run a search on 
face recognition data from surveillance cameras, would it be 
possible for such cameras to use face recognition technology in 
public areas without effectively gathering or discovering 
information on innocent people who are not the subject of an 
investigation?
    Ms. Garvie. No. That is not the way the face recognition 
systems work. Unfortunately, in order to identify the face of 
the person you are looking for you have to scan every single 
face of everybody else who you are not looking for.
    Mr. Ferguson. That is correct, and I think that the 
problem--even a probable cause standard may not be enough and 
you have to take steps to minimize if you are going to do this 
for particular reasons, which is why a probable cause plus or 
something higher should be part of Federal legislation on this.
    Mr. Amash. Thanks. Ms. Garvie and Ms. Guliani, what dangers 
could access to this data pose to the rule of law and to 
keeping our government free of corruption?
    Could abuse of face recognition data give officials the 
ability to influence political or business decisions or to 
unfairly target or benefit from such decisions? Does face 
recognition surveillance data need any increased protections to 
make sure these kinds of abuses don't occur?
    Ms. Guliani. The risk of abuse is substantial and the 
reason there is that risk of abuse is, No. 1, this technology 
is very cheap. You can run thousands of searches for just a 
handful of dollars. Two, it is being done secretly, right, so 
individuals don't necessarily know and can't raise concerns.
    And three, it is being done on a massive scale. I mean, we 
talked about access to driver's license photos and the extent 
to which it affects everybody in those data bases.
    We are going to--getting to a point where, you know, 
virtually everybody is in a face recognition data base, which 
gives the government enormous power. And so I think we need to 
think about those concerns before moving forward with this 
technology.
    Ms. Garvie. Think of a way that identifying somebody just 
because they show up in public in the--you know, with a camera 
present could be used and chances are it can and will be used 
in the absence of rules.
    Mr. Amash. All right. Thanks. I yield back.
    Chairman Cummings. Thank you very much.
    Mr. Gomez?
    Mr. Gomez. Thank you, Mr. Chairman.
    I want people to imagine that they are driving home from 
work and then they see in the rear view mirror, you know, red 
and blue lights. They have no idea why the police are behind 
them.
    You know, they weren't speeding. They didn't run a stop 
sign. But you know what? They pull over like everybody should. 
A voice over a loudspeaker commands them to exit their vehicle 
and as you do you see seven police officers, guns drawn, and 
they are pointing right at you. One wrong move, a mistake, a 
misunderstanding, a miscommunication can mean the difference 
between life and death.
    That is what is called a felony stop, one of the most 
common high-risk situations police find themselves in, and it 
all started earlier in the day when a police officer ran a 
search with a--through a facial recognition data base and it 
incorrectly identified you as a violent felon, and you had no 
idea that that even occurred.
    That is just one of the scenarios that I think about when 
it comes to this technology--one of the many things that could 
possibly go wrong.
    I must admit, I was not even paying attention to this 
technology until I was misidentified last year during the ACLU 
test of Members of Congress and it really did spark an interest 
and a curiosity of this technology and really did feel wrong 
deep in my gut that there is something wrong with this 
technology.
    I started looking into it since last year. I have had nine 
meetings. My office has had nine meetings with representatives 
from Amazon. We have asked questions from experts across the 
spectrum, and my concerns only grow day by day.
    Until February of this year, Amazon had not submitted its 
controversial facial recognition technology recognition to 
third party testing with the National Institute of Standards 
and Technology, known as NIST.
    In a January 2019 blog post, Amazon stated that, quote, 
``Amazon recognition can't be downloaded for testing outside of 
Amazon.'' In short, Amazon would not submit to outside testing 
of their algorithm.
    Despite the fact that Amazon had not submitted its facial 
recognition product to outside testing, it still sold that 
product to police departments.
    In 2017, police in Washington County, Oregon, started using 
Amazon recognition technology.
    Ms. Buolamwini----
    Ms. Buolamwini. Buolamwini.
    Mr. Gomez. Buolamwini. Do you think that third party 
testing is an important safe deployment--is important for safe 
deployment of facial recognition technology?
    Ms. Buolamwini. Absolutely. One of the things we have been 
doing at the Algorithmic Justice League is actually testing 
these companies where we can, and this is only--we are only 
able to do the test for the output. So we don't know how these 
companies are training the systems. We don't know the processes 
in place when they are selling the systems.
    All we know is when we test on our more comprehensive or 
more inclusive data sets what are the outcomes. So we 
absolutely need third party testing and we also need to make 
sure that the National Institute for Standards and Technology--
NIST--that their tests are comprehensive enough.
    Our own research show that some of the benchmarks from this 
were 75 percent male, 80 percent lighter skinned. So even when 
we have companies like Microsoft who figured out how to let 
NIST test their system, unlike Amazon, was claiming they 
couldn't, even when we have those performance results we have 
to see what data set it is being evaluated on.
    Mr. Gomez. Yes, correct. Because if it is evaluated on a 
data set that is incorrect or biased it is going to lead to 
incorrect results, correct?
    Ms. Buolamwini. Or an incorrect false understanding of 
progress. So back in 2014, Facebook released a paper called 
``DeepFace'' and they reported 97 percent accuracy on the gold 
standard benchmark at the time.
    But when you looked at that gold standard benchmark it was 
77 percent male and around 80 percent white individuals. And so 
as a result--or over 80 percent. So you don't know how well it 
actually does on the people who are not as well represented.
    Mr. Gomez. Before I run out of time, what organizations are 
equipped to accurately test new facial recognition 
technologies?
    Ms. Buolamwini. The National Institute of Standards and 
Technology is currently doing ongoing testing. But they need to 
be better.
    Mr. Gomez. Okay. Now, I appreciate it. This is a major 
concern. I think that you are seeing the--both parties and 
across the ideological spectrum showing some reservations about 
the use of this technology.
    I am glad to see the chairman of this committee look at 
this issue and I look forward to the next hearings that we will 
be having.
    Mr. Chairman, with that I yield back.
    Chairman Cummings. Yes. Mr. Gomez, I do expect that we are 
going to be able to get some legislation out on this. I talked 
to the ranking member. There is a lot of agreement. The 
question is do you have an all-out moratorium and at the same 
time try to see how this process can be perfected.
    But, clearly, you are absolutely right. There is a lot of 
agreement here, thank God.
    Ms. Tlaib?
    Ms. Tlaib. Thank you, Chairman.
    With little to no input, the city of Detroit created one of 
the Nation's most pervasive and sophisticated surveillance 
networks with real-time facial recognition technology.
    Detroit's $1 million face-scanning system is now tracking 
our residents on hundreds of public and private cameras at 
local parks, schools, immigration centers, gas stations, 
churches, health centers, and apartment buildings.
    My residents in the 13th congressional are burdened with 
challenges that most Americans couldn't bear themselves and 
laid on top of these economic challenges and structural racism 
that hurts our children more than anyone in the family is the 
fact that policing our communities has become more militarized 
and flawed.
    Now we have for-profit companies pushing so-called 
technology that has never been tested in communities of color, 
let alone been studied enough to conclude that it makes our 
communities safer.
    So Dr. Alexander, have you see police departments develop 
their own approval process concerning the use of facial 
recognition? If so, how are these policies determined?
    Ms. Garvie. It seems like Dr. Alexander stepped out, but I 
could take a stab at answering that question, if that would 
help.
    Ms. Tlaib. Thank you.
    Ms. Garvie. So my research includes FOIAs to a couple 
hundred agencies. We have seen some agencies develop policies. 
Detroit does have a policy around their use of face 
recognition.
    Concerningly, however, that policy states that their face 
surveillance system may be expanded beyond its current 
conception to drones and body cams as well.
    So it is not uncommon to see policies saying there might be 
some restrictions on its use but also affirmatively encouraging 
the use of the technology or reserving the right to expand it 
far beyond existing current capabilities.
    Ms. Tlaib. Ms. Garvie, right? Can you--do you know if these 
policies include any initial justification on the need for the 
facial recognition technology program, and second, in that 
policy for Detroit does it prevent them from sharing this data 
or information with any Federal or state agencies?
    Ms. Garvie. Most policies that I have read do not provide 
an initial justification beyond that it is a law enforcement 
investigative tool.
    I would have to get back to you on the question about what 
Detroit's policy specifically says. I do not recall any 
language either prohibiting or allowing that. But I would have 
to get back to you.
    Ms. Tlaib. Are we seeing any uniformity in these policies 
across law enforcement agencies at all?
    Ms. Garvie. No.
    Ms. Tlaib. How are--have any of these policies proven to be 
effective? I think we all agree that there is too many flaws 
for it to be effective, correct?
    Ms. Garvie. Correct, and one of the problems is most of 
these policies are not available to the public. We have seen 
far more policies now, thanks to FOIA processes and FOIA 
litigation to try to get information.
    But the LAPD, the NYPD, and other jurisdiction initially 
tell us they have no records, even though they may have records 
or they may have systems. So there is a fundamental lack of 
transparency around this as well.
    Ms. Tlaib. Yes. Chairman, if I may submit for the record an 
article, ``Researchers Alarmed by Detroit's Pervasive Examining 
Facial Recognition Surveillance Program,'' talking about the 
little to no input and transparency in the implementation of 
that program.
    Chairman Cummings. Without objection, so ordered.
    Ms. Tlaib. In the response to this lack of kind of 
oversight we have heard various organizations advocate for 
independent police oversight board or judicial approval for the 
use of facial recognition technology on a case by case basis 
which would require a probable cause standard.
    Professor Ferguson, can you speak about the benefits of 
this approval process?
    Mr. Ferguson. There would be some approval--some check if 
there was at least a probable cause standard. I think that with 
the danger of facial recognition it might even need to be 
higher than just probable cause, more of a probable cause plus 
kind of idea.
    You would also take care of the minimization requirements. 
You would be certain of the data and what would happen to it. 
But at least it is some check.
    Right now, this technology is being deployed without that 
check in most cases, and having Federal legislation, state 
legislation, and local legislation on it and a third party 
check of a judge would certainly be an improvement.
    Ms. Tlaib. And, you know, I get this a lot. There are some 
that argue that probable cause plus warrant would be too 
burdensome for law enforcement officials and would not allow 
them to move quickly when attempting to catch a potential 
criminal.
    Do you agree with this assertion?
    Mr. Ferguson. No, I don't think it is that hard. If you 
have probable cause of a crime, you know you have an 
identification and you want to search a data base, I think a 
judge will sign off on it. Judges now can get warrants 
electronically on their iPads. I don't think it is that much of 
a burden anymore.
    Ms. Tlaib. I couldn't agree more. A person's freedom is at 
stake.
    So thank you so much. Thank you, Mr. Chairman. I yield the 
rest of my time.
    Chairman Cummings. Thank you very much.
    Mr. Lynch?
    Mr. Lynch. Thank you, Mr. Chairman, and let me congratulate 
you on a very--just an excellent hearing and I want to thank 
the witnesses. You have done a tremendous service, I think, to 
this committee and I am sure that your thoughts and inputs will 
be reflected in some of the legislation that comes out of here.
    For the record, I would like to ask unanimous consent to 
submit Massachusetts Senate Resolution 1385 and Massachusetts 
House Resolution 1538. This is the legislation that would put a 
moratorium on facial recognition in my state of Massachusetts.
    Chairman Cummings. Without objection.
    Mr. Lynch. Thank you.
    And I don't usually do this, but I read this excellent book 
about a month ago. It is by Shoshana Zuboff over at Harvard, 
``Surveillance Capitalism,'' and it changes--it really changed 
the way I look at all of this.
    I am actually the chairman of the Fin Tech Task Force here 
in Congress on the Financial Services Committee, and she did a 
wonderful job with the book.
    And I believe that--after reading this that our focus today 
just on facial recognition and just on law enforcement's use of 
this information and just, you know, public surveillance is far 
too narrow.
    You know, right now in this country we have about 257 
million smart phones. About 100 million of those are iPhones. 
So because we click ``I agree'' when we use those apps, even 
though the average American spends about 14 seconds reading 
that agreement, and we click ``I agree.''
    And so what we don't know is that when we click ``I agree'' 
it allows Apple, Google, Facebook to use, to share, to sell all 
of our information.
    So, you know, they track what we look--not only what we 
look like but who our friends are or where we go each and every 
day, tracking our motion, every selfie we take that gets 
uploaded, every book we have read, every movie we see--you 
know, how we drive. AllState now has an app where you--you 
know, if you let them track you and you don't drive crazy they 
will lower your rates, you know, so there is this--so right 
now, you know.
    And the Internet of Things--my coffee maker and my toaster 
is hooked up to the internet. You know, I am not sure I really 
need that. But my vacuum cleaner, although I don't use it very 
often, is hooked up to the Internet of Things.
    So what we have right now--my iWatch. You know, I am a 
victim here. I have got everything going. But----
    [Laughter.]
    Mr. Lynch. The problem is we have total surveillance and we 
are looking at this one little piece of it--you know, facial 
recognition--and I worry that we are missing all of--all of the 
other--the dangers here just because it is not the government. 
It is Facebook. It is Google. It is Microsoft. It is Apple.
    And to go back to Mr. Grothman's point a while ago, OPM, 
you know, gathered up all of our information here in Congress 
and then they were hacked. They didn't encrypt any of our 
Social Security numbers or anything. So we believe it was the 
Chinese. They got all that information.
    And so now we are allowing Apple, Google, Facebook to 
maintain these huge and granular descriptions of who we are, 
and they have been getting hacked as well.
    And I am just wondering is there a bigger--is there a 
bigger mission here that we should be pursuing, Ms. Buolamwini, 
in terms of--you know, I believe in the right to be forgotten. 
I believe in the right not to be surveilled. I believe there 
should be sanctuary for us that we don't have to be, you know, 
surveilled all the time.
    Is that something you think about as well?
    Ms. Buolamwini. Absolutely, and one thing I can credit the 
Massachusetts bill for addressing is instead of just saying we 
are going to look at facial recognition they talk about 
biometric surveillance, right. So we are also talking about 
voice recognition. We are talking about gait analysis--anything 
that is remote sensing.
    Do we need to be talking beyond facial analysis 
technologies? Absolutely as well, so let us look at self-
driving cars.
    There is a study that came out of Georgia Tech showing that 
for pedestrian tracking self-driving cars were less accurate 
for darker-skinned individuals than lighter-skinned 
individuals.
    So when we are talking about this realm of human-centric 
computer vision, it is not just face recognition that should be 
concerning.
    Mr. Lynch. Ms. Garvie or Ms. Guliani?
    Ms. Guliani. I mean, the ACLU is one of many organizations 
that have called on Congress to pass baseline consumer privacy 
legislation, right, which would put guardrails on how private 
companies deal with your private data, including biometrics.
    And so I do think that that is very much needed and I think 
that that legislation has to include not just protections but 
real enforcement.
    So when your data is misused you have actually an 
opportunity to go to court and get some accountability.
    Mr. Lynch. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman Cummings. Mr. DeSaulnier?
    Mr. DeSaulnier. Yes, Mr. Chairman, I want to thank you as 
well and I want to thank the panel. This has been terrific. I 
want to take some credit. I don't know if it is true or not, 
but I think we are part of the same book club. I think I 
suggested the book to Mr. Lynch and it is a fabulous book, 
``The Age of Surveillance Capitalism.''
    And since, like Mr. Gomez, I was one of the three people 
who they say--you showed that I was misidentified, I was hoping 
I would be misidentified as George Clooney. But, you know, just 
my perception of myself.
    So I want to talk about this as a representative of----
    Mr. Connolly. Yes. Uh-huh.
    Mr. DeSaulnier. Uh-huh.
    [Laughter.]
    Mr. DeSaulnier. That was Connolly, right? Denial is not a 
river in Egypt.
    As a representative from the Bay Area and I have watched 
these tech companies transform, and I conclude Amazon is part 
of this culture, and I have listened to them talk about 
disruption as--you know, if I had questions as elected 
officials--local or state or Federal--when I was inhibiting 
innovation, and from my perspective in having met with CEOs who 
one of them once told me when he was asking for my help on 
something that he didn't want to deal with people like me.
    And I laugh because what he was expressing was that people 
from the government were slow, didn't understand how this 
culture was transforming the world, and I really think they 
believe that and bought into it. It is not about the billions 
of dollars they make.
    And my argument including with Amazon yesterday it would be 
nice if you tried to work with us to do--deal with the societal 
impacts because you are going to have to deal with them one way 
or the other.
    But the problem now is when I think of--when I was 
listening to my colleague talk about the Supreme Court cases I 
think of Louis Brandeis writing his paper on privacy and 
convincing other justices like Oliver Wendell Holmes that they 
were wrong about it--was that he said Americans had the right 
to be left alone.
    How can we say that any longer? None of us are left alone. 
We just--we have news reports--it is a story on Forbes from 
this month about Echo and Alexa listening to children.
    So I really think, Mr. Chairman, and I am so encouraged by 
what I have heard in a bipartisan way today that we need to 
stop--that it has gone down too far. We are not starting at a 
metric where we are just beginning the deployment of this. It 
has already been deployed.
    And to Mr. Lynch's comments, it is being deployed not just 
for facial recognition but for everything we do. And there are 
benefits for that and we can see that, but we need a time out 
societally, as Europe has led us on, to say no.
    And the example in San Francisco is interesting, knowing 
people in local government in San Francisco. When scooters were 
trying to get permits, it was great what San Francisco did as, 
you know, the hub of innovation disruption, sort of.
    The two companies who actually came and asked permission 
were the ones who got permission. The ones who didn't were 
horrified when they were told no, we are not going give you 
permits to use these.
    If you had just come in in the first place--and I think we 
have a responsibility in government to be more responsive. But 
they are not even coming halfway.
    So, to me, this is a moment for us in a bipartisan way to 
say stop. There are benefits to the species in this planet. But 
you need societal input to this, and we have already lost our 
right to be left alone. They have de facto taken that away from 
us.
    So, Ms. Guliani, could you respond to that a little bit? 
Because the cultural attitude they are taking, and they will 
apply it politically vis-`-vis campaigns and other things, 
because I think they really do believe that they have done no 
harm and you and I are in the way by raising questions about 
how they deploy this technology.
    Ms. Guliani. Yes. I mean, I think one of the things that we 
have seen with some of the private companies is that they are 
actively marketing some of these uses.
    So in the case of Amazon, they were pushing some of the 
most concerning uses--face recognition, body-worn cameras, 
right--opening up the possibility of a near-surveillance state.
    And so I think that there--they are not passive actors in 
the system and they should be forced to take responsibility, 
and that responsibility should include questions about how 
accurate is their technology, are they disclosing the problems 
and the real risks, and are they saying no when they should say 
no.
    And I think when it comes to certainly some of the law 
enforcement uses that really are life and death scenarios, 
these companies shouldn't be selling to the government in those 
scenarios, given the risks that we have talked about.
    Mr. DeSaulnier. And given the lack of regulatory 
enforcement, how do we provide civil enforcement for state laws 
and Federal laws that aren't being enforced, in my view, right 
now?
    Ms. Guliani. I mean, with regards to the--some of the 
private companies and the extent to which they have sold this 
technology, I think there is questions about whether they have 
been honest in their disclosures and there is certainly, you 
know, investigation and analysis in that.
    I think, more broadly, from a regulatory standpoint, it is 
really up to Congress and others to say no, we are going to hit 
the pause button. Let us not roll out this technology before we 
really understand the harm and before we think about whether 
there are, frankly, better alternatives that are more 
protective for privacy and ones that may also have law 
enforcement benefits.
    Mr. DeSaulnier. Thank you. Thank you, Mr. Chairman.
    Chairman Cummings. I recognize Ms. Miller for a unanimous 
consent request.
    Ms. Miller. Thank you, Chairman Cummings.
    I ask unanimous consent to enter this letter from 
Information Technology and Innovation Foundation into the 
record.
    Chairman Cummings. Without objection, so ordered.
    Chairman Cummings. Mr. Connolly?
    Mr. Connolly. Thank you, Mr. Chairman.
    If I can pick up sort of on where we just were, Ms. 
Guliani. The ubiquity of this technology strikes me. Maybe we 
have already kind of mostly lost this battle.
    Airports increasingly are using facial recognition 
technology to process passengers in a more expeditious way, 
correct?
    Ms. Guliani. TSA and CBP have both introduced face 
recognition plans. They have not done rulemaking, and some of 
their plans go far beyond what Congress has authorized.
    Mr. Connolly. But CLEAR--isn't CLEAR technology already in 
airports?
    Ms. Guliani. Yes.
    Mr. Connolly. Yes. So, I mean, we already have it and are 
you aware of any restrictions on that private company in terms 
of how it uses whatever data is collected currently?
    Ms. Guliani. I don't know that company specifically. I 
think that with regards to the airport use, there are a lot of 
questions and concerns. For example, requiring Americans to 
provide their biometric--their face----
    Mr. Connolly. Right.
    Ms. Guliani [continuing]. and questions about whether there 
is a way to opt out. I tried to opt out. It wasn't an easy 
process----
    Mr. Connolly. Yes.
    Ms. Guliani [continuing]. when I was traveling 
internationally. And there is also questions about, I think, 
the build out, right. It has been sort of presented as, well, 
we are just using this to make travel faster. But when you look 
at some of the documents, some of the use cases are far beyond 
that----
    Mr. Connolly. Okay.
    Ms. Guliani [continuing]. right, to find people of 
interest, whatever that means.
    Mr. Connolly. So I just think that is for further 
examination as well. What restrictions do exist, if any, on 
private companies that are using this technology and from a 
constitutional point of view what restrictions can there be 
and--or should there be, and I think that is worthy of some 
examination as well.
    Let me ask about a real-life example of the panel. Anyone 
can answer. But the FBI currently has agreements with various 
states in terms of driver's license including states that use 
facial recognition technology for their driver's license.
    And I don't know that that is regulated at all. I don't 
know that the average citizen getting their driver's license or 
getting it renewed understands that they have tacitly agreed to 
allow that piece of data to go to a Federal law enforcement 
agency to be used however they apparently deem fit.
    And I wonder if you would comment on that because at one 
point the FBI was actually urged to determine whether external 
facial recognition systems are sufficiently accurate to be 
justified for FBI use and whether they would agree to limit it 
if it wasn't, and the FBI actually refused to do that--raising 
questions that we were talking about earlier in terms of misuse 
or misapplication of the technology.
    So what about the FBI and that relationship with states? 
Should we be concerned?
    Mr. Alexander. You know, I don't think that is--it is a 
good question for the FBI but it is a good question, quite 
frankly, for both local, state, and Federal law enforcement 
because in the public safety community we exchange information 
back and forth with each other on a--on a constant basis.
    And in this particular case in which you are referring to, 
that would not be unusual. The question becomes and the current 
concern now is that this has been very much unregulated without 
any oversight whatsoever and in light of the fact that we are 
looking at a piece of technology that is very questionable and 
is raising concern as we continue here this afternoon in this 
hearing.
    So I think that that is part of what has to be assessed and 
further questions that have to be asked from both the Federal, 
state, and local level in the sharing of this information that 
is very sensitive and very questionable when it comes around to 
our constitutional liberties.
    That does raise a great deal of concern and that is part of 
the complexity in this because for me to be effective as a 
chief of police at a local level a lot of times I am dependent 
upon my state and Federal partners, and vice versa, because we 
have seen benefit in that--not so much around facial 
recognition technology, but just as a whole of being able to 
share and communicate with each other around those types of 
things.
    Ms. Guliani. I mean, when it comes to FBI use we should be 
concerned. I mean, these are systems that have been in place 
for years, and as your question rightfully pointed out, the FBI 
is not even acknowledging a responsibility to fully test the 
accuracy of systems that it is using and relying on.
    And that, I think, builds into a larger question of do we 
really want this massive data base of all of our faces. We are 
rapidly approaching a place where virtually every adult will 
have their face in a system that can be searchable by the FBI 
where face recognition can be used.
    Mr. Connolly. Well, and let me just tell you, in the state 
of Virginia I don't want my face that is on the driver's 
license in any data base.
    [Laughter.]
    Chairman Cummings. Mr. Raskin?
    Mr. Raskin. Mr. Chairman, thank you very much.
    The witnesses have described a technology of potential 
totalitarian surveillance and social control, and I want to 
thank you for calling this extremely important hearing.
    And as chair of the Civil Rights and Civil Liberties 
Subcommittee with my vice chair, Congresswoman Ocasio-Cortez, 
we will absolutely work with you to followup on this to make 
sure that we are looking at all the dimensions of our privacy 
that are threatened by this and similar technologies.
    I want to thank all of the wonderful witnesses for their 
testimony. I want to start with you, Professor Ferguson, 
because back in the day we wrote a book together and that was 
in the days when I wrote books. Today, I write tweets. But I am 
glad that you are still writing books and Law Review articles.
    One of the things I know that has interested you a lot is 
the question of the seat of government and the right of protest 
and the right to petition for redress of grievances here in the 
District of Columbia.
    And since January 2017 I have been to a lot of protests 
here. I have been to the Women's March, the Climate March, the 
Science March, the March for Our Lives, and on and on. And I am 
wondering if people knew that this technology were being 
deployed by the government and they were being photographed, so 
and what effect do you think that would have? And let me ask 
you and then perhaps Ms. Guliani to weigh in on this.
    Mr. Ferguson. It would fundamentally undermine the First 
Amendment and the right of free expression and our freedom of 
association. I think it is chilling and a problem and needs to 
be banned.
    Mr. Raskin. Ms. Guliani, do you agree with that?
    Ms. Guliani. Yes, I couldn't agree more. The last thing we 
want before someone goes to a protest and exercises their 
constitutional right is for them to think, am I going to have 
my face scanned.
    Mr. Raskin. China, seems to me, to be the dystopian path 
that needs not be taken at this point by our society. It has 
been leveraging real-time facial recognition technology to 
implement its social credit score system, which assesses each 
citizen's economic and social reputation and pins it at a 
particular number.
    Here is the New York Times: ``Beijing is embracing 
technologies like face recognition and artificial intelligence 
to identify and track 1.4 billion people. It wants to assemble 
a vast and unprecedented national surveillance system with 
crucial help from its thriving technology industry.''
    Ms. Garvie, let me come to you. We are now seeing that most 
companies that develop facial recognition systems offer also 
real-time software. Do we know how many of these are selling 
their technology to government actors in the United States?
    Ms. Garvie. That is right. Most, if not all, companies that 
market face recognition to law enforcement in the U.S. also 
advertise the ability to do face surveillance.
    We have no idea how widespread this is, thanks to a 
fundamental absence of transparency. We have limited visibility 
into what Chicago is doing, what Detroit is doing, Orlando, the 
Secret Service here in Washington, DC. and in New York, thanks 
to FOIA records and investigative journalists' work.
    But for a vast majority of jurisdictions we have no idea.
    Mr. Raskin. So you cannot estimate how many communities are 
actually deploying this technology right now?
    Ms. Garvie. No.
    Mr. Raskin. What is the minimum, do you think?
    Ms. Garvie. So we can estimate conservatively that face 
recognition generally both uses an investigative tool and 
potentially as a surveillance tool is accessible to, at very 
least, a quarter of all law enforcement agencies across the 
U.S.
    That is a conservative estimate because it is based on 300 
or so records requests where there are 18,000 law enforcement 
agencies across the country.
    Mr. Raskin. Great.
    Ms. Buolamwini, you make some very powerful arguments in 
your call for a moratorium on the use of this technology. What 
objections would you anticipate from people who say that there 
are legitimate law enforcement uses that are actually helping 
to solve cases and identify suspects and so on?
    Ms. Buolamwini. Well, that is the objection, that there is 
this hypothetical good use case. But we actually have to look 
at the reality. So the example I gave earlier is in the United 
Kingdom where they have reported performance metrics you are 
getting false positive match rates over 90 percent.
    So the promise for what it could do for security versus the 
reality doesn't match up.
    Mr. Raskin. And that is dangerous. That is positively 
dangerous.
    Ms. Buolamwini. Absolutely.
    Mr. Raskin. I mean, one, because you are violating 
somebody's civil liberties in the most fundamental way, and 
two, you are leaving the real criminal suspect or the real 
criminal out there at large because you have chosen the wrong 
person.
    Ms. Buolamwini. True. But I also wanted to touch on your 
point with 1.4 billion people being surveyed in China. More 
than China, Facebook has 2.6 billion people, and as 
Representative Lynch spoke to, it is not just the state 
surveillance we have to think about.
    We have to think about corporate surveillance. So Facebook 
has a patent where they say because we have all of these face 
prints, collected often without consent, we can now give you an 
option as a retailer to identify somebody who walks into the 
store and in their patent they say, we can also give that face 
a trustworthiness score.
    And based on that trustworthiness score we might determine 
if you have access or not to a valuable good. So this----
    Mr. Raskin. Facebook is selling this now?
    Ms. Buolamwini. This is a patent that they filed as in 
something that they could potentially do with the capabilities 
they have. So as we are talking about state surveillance, we 
absolutely have to be thinking about corporate surveillance as 
well and surveillance capital----
    Mr. Raskin. And they would say that all of that is built 
into whatever contract or licensing agreement people spend 10 
seconds signing off on when they set up a Facebook account. Is 
that right?
    Ms. Buolamwini. You would not have to consent.
    Mr. Raskin. Yes. Yes.
    Mr. Chairman, finally, something interesting of affinity to 
today's deliberations just took place, which is a number of 
us--I think you were with me and other members of the Maryland 
delegation--we signed a letter expressing concern about the 
China government--Chinese government-owned and controlled 
businesses getting contracts to run subway systems in America, 
including in the Nation's capital here, and there have been a 
lot of both civil liberties and national security concerns 
raised by it.
    And I want to introduce a front-page article from today's 
Washington Post, ``Despite National Security Concerns, GOP 
Leader McCarthy Blocked Bipartisan Bid to Limit China's Role in 
U.S. Transit System.''
    Chairman Cummings. Without objection, so ordered.
    Mr. Raskin. And I yield back. Thank you.
    Chairman Cummings. I have not asked my questions. I am 
going to ask them now. I know it is getting late but I will be 
brief.
    First of all, I want to thank all of you for an excellent 
presentation. I think you all really laid out the problem. I 
always tell my staff, tell me what, so what, and now what.
    And Professor Ferguson, I want to thank you. The ACLU 
released documents revealing that the Baltimore County Police 
Department, which, of course, is part of my district, partnered 
with the private company Geofeedia to identify individuals 
protesting the shooting of Freddie Gray in May 2015.
    The company stated, and I quote, ``Police officers were 
even able to run social media photos through facial recognition 
technology to discover rioters with outstanding warrants and 
arrest them directly from the crowd,'' end of quote.
    To be clear, police officers may have used facial 
recognition technology on citizens' personal photos from social 
media to identify and arrest them while they were exercising 
their First Amendment right to assemble.
    As someone who was in the crowd, I find this discovery to 
be very disturbing.
    Professor Ferguson, the Constitution endows us with, quote, 
``the right of people to peaceably assemble.''
    So to all of you, how would widespread police use of facial 
recognition technology at protests affect citizens' right to 
peaceably assemble?
    Mr. Ferguson. It is fundamentally American to protest and 
it is fundamentally un-American to chill that kind of protest. 
What you talk about in Baltimore is a great example of both the 
problems of public surveillance and then using third party 
image aggregators like Facebook and other social media groups 
to do that kind of private surveillance.
    Both will chill future protests. It will chill the desire 
of American citizens to say that their government may have 
acted inappropriately, and it is a real problem which deserves 
congressional regulation.
    Chairman Cummings. Anybody else?
    Mr. Alexander. Yes, sir, and this is what I have been 
saying from the onset. If this type of technology is not 
utilized in a ethical moral constitutional type of way, it 
continues to do exactly what it did to you out there, 
Congressman, and other people.
    It separates the community from its public safety. There is 
a lack of trust. There is a lack of legitimacy. There is this 
whole fear of you being a watchdog over me in a warrior sense 
as opposed to be a guardian of their community.
    No one should have been subjected to what you just 
articulated. That is the wrong use of this technology, 
particularly when you have individuals, that was just very 
eloquently stated by Mr. Ferguson, who are trying to just do 
normal work and exercise their First Amendment right and for 
people to be able to assemble and not be subjected to this type 
of technology, which was used wrongly by Baltimore, and I will 
say that publicly and privately, because they lacked the 
training and they lacked the understanding of the potential of 
what this technology can do to harm their relationship with the 
community.
    That is a serious problem and that is why you have to--for 
me, here again, these companies that develop this technology 
they too have to be held responsible and those police 
departments that acquired that technology from these companies 
have to be held accountable as well, too.
    But after listening myself to much of the testimony that 
has been stated here today, I really came in here in hopes of 
being able to say for public safety, for law enforcement 
itself, there is good use of this technology.
    But I think a lot of things that we have talked about now 
have to be further discovered before we can continue with this 
technology because my concern, as a former law enforcement 
official, I don't want technology being utilized by police that 
is going to separate it further from the community in which it 
already serves. If there is benefit to it, let us find it. Let 
us utilize it to help keep our communities safe----
    Chairman Cummings. Thank you.
    Mr. Alexander [continuing]. and because there is no 
exception and there is no shortcut around that.
    Chairman Cummings. Ms. Guliani, let me ask you the same. We 
have had a lengthy discussion here. But I have heard very 
little about court cases and I was kind of surprised that I 
haven't.
    Has this been tested? I mean, have we--are there court 
where--has this been an issue and are there court cases with 
regard to this?
    Because it does seem to me that the ranking member made 
some good points that you have got people at the FBI making 
agreements with police departments, nobody elected in the 
process, and they are using this stuff, and then you have all 
the arguments that you all have made with regard to the 
defectiveness of the--of the machinery.
    What has happened on that front?
    Ms. Guliani. Sure. There is no court of appeals that has 
directly addressed the constitutionality of, let us say, real-
time face recognition or matching against a driver's license 
data base.
    And I think that one of the big reasons for that is for 
defendants to raise that challenge they have to be notified, 
and people aren't being notified.
    And so I think that that is insulating this technology from 
the judicial review that is very sorely needed. Having said 
that, there is, obviously, other bodies of case law--the 
Carpenter decision and others--which are relevant and could 
apply to uses of face recognition.
    But what we need is notice so that these cases can come 
before the court. Without that, it becomes very difficult to 
have developed case law.
    Ms. Buolamwini. One way people are getting notice is by 
having economic opportunity denied. So May 20 this week you 
actually have William Fambrough, who is in Missouri, who 
submitted a case against Uber Technologies, and the reason for 
doing this is because Uber requires a selfie verification to 
make sure you are the driver you say you are, and in his 
particular case, because he was having to lighten his photos so 
he could be recognized, Uber said he doctored the photos and 
unilaterally kicked him off the platform with no kind of 
recourse.
    So this was just filed. I don't know how it will go 
through. But, again, the only reason the person knew was 
because they no longer had this access to economic opportunity.
    Chairman Cummings. Coming back to you, Dr. Alexander, how 
do you think the use of facial recognition technology to survey 
crowds is changing police tactics?
    And one of the things I noticed in Baltimore is that they--
you know, at one time--I think they still do it--have a--use a 
helicopter and they take these images.
    And how does that relate to all of this. You know what I am 
talking about?
    Mr. Alexander. Yes, and you are also talking about drone 
technology, I would imagine.
    Chairman Cummings. Yes. Yes.
    Mr. Alexander. Yes, sir. Well, you know, a lot of this is 
still--in many ways, it is very early stages. But I still think 
it goes back to the entire privacy issues.
    But one of the biggest things I find, Chairman, from my 
experience is that when new technology is developed and we take 
that technology and we introduce it into our communities across 
the country, we never tell our communities what it is, why it 
is being utilized, and how it would help benefit public safety.
    So what ends up happening is people draw their own 
conclusions around it, already sometimes in suspicion of the 
work that police are doing because oftentimes they operate in a 
very clandestine type of sense.
    But I think it is important as this technology continues to 
emerge, whether we are using air support with infrared cameras 
or whether we are using drone technology or whatever the case 
may be, as we continue to evolve in our technology, when that 
technology comes to my front door, as a law enforcement 
official I want to know all about it. I want to ask all the 
right questions.
    I want to have the type of people that are at the table 
right here with us today to ask the appropriate questions so we 
are going to advance this technology and be able to educate my 
community in terms of what it means and what is the benefit of 
it and what is the challenges that are associated with it.
    It makes that type of technology much better for people to 
digest and be able to understand and, as we run across problems 
that evolve as a result of it, we are able to work with our 
communities to help resolve those even if we have to enact new 
legislation around it.
    Chairman Cummings. But an hour ago you said that you were 
not anxious to see a moratorium and it sounds like you may have 
changed that a little bit.
    Mr. Alexander. Well, I mean--I mean, I am not because, you 
know, one thing I support, Chairman, I support technology. But 
I support good technology and I support technology that has 
rules with it and it has oversight with it and there is 
policies written around it.
    I, certainly, would rather not see a moratorium. However, 
if the issues that have been articulated here today are as 
serious as we believe they to be, then we have to go back and 
ask ourselves that question.
    But here is the thing we have to be cautious of. If we are 
going to put a moratorium on this technology, I also want to 
hear what have been the benefits, if any--if any. What have 
been the benefits and how do we utilize some of those benefits 
in some type of constructive way until we work out the bigger 
problems around the issues that we have discussed here today.
    I just don't want to throw the baby out with the bathwater 
if there is some way in which this technology, which I am going 
to make a reasonable assumption and based on my own experience 
in some ways it has been useful.
    But if it is going to continue to harm the American people, 
then it is certainly something in which we need to consider 
putting some pause to, if you will, in being able continue to 
investigate what is the good part of this technology if 
possible we still can utilize as we go through this process of 
learning more and putting legislation around it.
    Chairman Cummings. Ms. Guliani, you had something to say?
    Ms. Guliani. Yes. I mean, I think that we have to resolve 
some of the fundamental questions and problems. How are going 
to prevent this technology from having a disparate impact 
either because of accuracy or because of existing biases in the 
criminal justice system?
    How are we going to prevent the buildup of a surveillance 
state, right, where there is a camera on every street corner 
and people don't feel like they can walk around anonymously?
    How are we going to safeguard our First Amendment liberties 
and make sure that no one says to themselves, I can't go to 
this protest because I am afraid my face is going to be 
scanned?
    And so I think before--we can't move forward with this 
technology until we can answer and resolve those fundamental 
questions.
    Chairman Cummings. Ms. Cortez, did you have anything? 
Anybody else?
    Ms. Ocasio-Cortez. Yes. I mean, first of all, Mr. Chairman, 
I want to thank you again for holding this hearing. It is so 
critical that part of our operation here as government and part 
of, as Mr. DeSaulnier expressed, is making government 
responsive and making sure that we are ahead of the curve so we 
are not consistently operating out of a reactive space but out 
of a proactive space.
    Because there are forces out there. Whether it is a 
corporation trying to make and squeeze a dollar out of every 
bit of information about your life or whether it is foreign 
governments trying to hack these data bases for that 
information as well, we need--there are folks out there that 
know the kind of world they want to create that advances their 
interests and I think that it is extraordinarily encouraging 
that this is a strong bipartisan issue.
    Whether we are concerned about this for--whether we are 
concerned about this for a civil liberty reason, whether we are 
concerned about this for criminal justice reform reasons, about 
right to privacy, this is about who we are as America and the 
America that is going to be established as technology plays an 
increasingly large role in our societal infrastructure.
    And we have to make sure how American values and our Bill 
of Rights and our constitutional protections get translated to 
the internet and in the digital age.
    So I want to thank all of our witnesses for coming here. I 
want to thank the chairman for your foresight in holding this 
hearing. We got to get something done.
    Chairman Cummings. And we will.
    Ms. Ocasio-Cortez. And I look forward to working with the--
you know, our colleagues on the other side of the aisle and 
many of the caucuses that have aligned around these basic 
principles.
    Chairman Cummings. Mr. Gomez?
    Mr. Gomez. Mr. Chairman, I want everybody to be very clear. 
We are not anti-technology and we are not anti-innovation.
    But we got to be very aware that we are not stumbling into 
the future blind and at that same time giving up some liberties 
and protections that we have all cherished not only for decades 
but for generations.
    It is always that balance between innovation and protecting 
individual rights and civil liberties. We get that. But this is 
a issue that I think must be looked at. As I said, I was never 
planning on working on this issue. the issue found me. Well, 
thank you to the ACLU.
    At the same time, I just got word that the shareholders did 
not end up passing a ban--of Amazon did not pass a ban on the 
sale of recognition. And you know what? That just means that it 
is more important that Congress acts.
    So with that, I yield back, and thank you, Mr. Chairman, 
for your leadership.
    Chairman Cummings. Thank you.
    Without objection, the following statements will be 
included in the hearing record: Project on Government Oversight 
report titled ``Facial Recognition: Facing the Future of 
Surveillance; No. 2, Electronic Privacy Information Center 
letter on the FBI's next-generation identification program; No. 
3, Geofeedia case study titled, quote, ``Baltimore County 
Police Department, Geofeedia Partner to Protect the Public 
During Freddie Gray Riots,'' end of quote.
    Chairman Cummings. Did you have something, Mr. DeSaulnier?
    Mr. DeSaulnier. No. Thank you.
    Chairman Cummings. Very well.
    I would like to thank our witnesses. This has been--I have 
been here for now it is 23 years. It is one of the best 
hearings I have seen, really. You all were very thorough and 
very detailed.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the chair, which will then be forwarded to the 
witnesses for their--a response.
    I ask all witnesses to please respond as promptly as you 
can. Again, I want to thank all of you for your patience. Sorry 
we got started late. We had some meetings, and we have gone on 
for a while.
    But thank you very much.
    This meeting is adjourned.
    [Whereupon, at 1:23 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
